<html>
<title> - REAUTHORIZATION OF NTIA</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                        REAUTHORIZATION OF NTIA

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON COMMUNICATIONS AND TECHNOLOGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 2, 2017

                               __________

                            Serial No. 115-5
                            
 GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov                        
                       
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
24-883                     WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0661766946657375726e636a762865696b28">[email&#160;protected]</a>                         
                        
                        
                        
                        
                        
                        
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman
JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
TIM MURPHY, Pennsylvania             ELIoT L. ENGEL, New York
MICHAEL C. BURGESS, Texas            GENE GREEN, Texas
MARSHA BLACKBURN, Tennessee          DIANA DeGETTE, Colorado
STEVE SCALISE, Louisiana             MICHAEL F. DOYLE, Pennsylvania
ROBERT E. LATTA, Ohio                JANICE D. SCHAKOWSKY, Illinois
CATHY McMORRIS RODGERS, Washington   G.K. BUTTERFIELD, North Carolina
GREGG HARPER, Mississippi            DORIS O. MATSUI, California
LEONARD LANCE, New Jersey            KATHY CASTOR, Florida
BRETT GUTHRIE, Kentucky              JOHN P. SARBANES, Maryland
PETE OLSON, Texas                    JERRY McNERNEY, California
DAVID B. McKINLEY, West Virginia     PETER WELCH, Vermont
ADAM KINZINGER, Illinois             BEN RAY LUJAN, New Mexico
H. MORGAN GRIFFITH, Virginia         PAUL TONKO, New York
GUS M. BILIRAKIS, Florida            YVETTE D. CLARKE, New York
BILL JOHNSON, Ohio                   DAVID LOEBSACK, Iowa
BILLY LONG, Missouri                 KURT SCHRADER, Oregon
LARRY BUCSHON, Indiana               JOSEPH P. KENNEDY, III, 
BILL FLORES, Texas                       Massachusetts
SUSAN W. BROOKS, Indiana             TONY CARDENAS, California
MARKWAYNE MULLIN, Oklahoma           RAUL RUIZ, California
RICHARD HUDSON, North Carolina       SCOTT H. PETERS, California
CHRIS COLLINS, New York              DEBBIE DINGELL, Michigan
KEVIN CRAMER, North Dakota
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia

             Subcommittee on Communications and Technology

                      MARSHA BLACKBURN, Tennessee
                                 Chairman
LEONARD LANCE, New Jersey            MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               PETER WELCH, Vermont
STEVE SCALISE, Louisiana             YVETTE D. CLARKE, New York
ROBERT E. LATTA, Ohio                DAVID LOEBSACK, Iowa
BRETT GUTHRIE, Kentucky              RAUL RUIZ, California
PETE OLSON, Texas                    DEBBIE DINGELL, Michigan
ADAM KINZINGER, Illinois             BOBBY L. RUSH, Illinois
GUS M. BILIRAKIS, Florida            ANNA G. ESHOO, California
BILL JOHNSON, Ohio                   ELIoT L. ENGEL, New York
BILLY LONG, Missouri                 G.K. BUTTERFIELD, North Carolina
BILL FLORES, Texas                   DORIS O. MATSUI, California
SUSAN W. BROOKS, Tennessee           JERRY McNERNEY, California
CHRIS COLLINS, New York              FRANK PALLONE, Jr., New Jersey (ex 
KEVIN CRAMER, North Dakota               officio)
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
GREG WALDEN, Oregon (ex officio)
  
                             
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................     1
    Prepared statement...........................................     3
Hon. Michael F. Doyle, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     3
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, prepared statement.....................................    67

                               Witnesses

John M.R. Kneuer, Former Assistant Secretary for Communications 
  and Information, Former Administrator, NTIA, President and 
  Founder, JKC Consulting........................................     7
    Prepared statement...........................................    10
    Answers to submitted questions \1\...........................    71
Meredith Attwell Baker, Former Acting Assistant Secretary for 
  Communications and Information, Former Acting Administrator, 
  NTIA, President and CEO, CTIA..................................    15
    Prepared statement...........................................    17
    Answers to submitted questions...............................    73
Anna M. Gomez, Former Acting Assistant Secretary for 
  Communications and Information, Former Acting Administrator, 
  NTIA, Partner, Wiley Rein......................................    25
    Prepared statement...........................................    27
    Answers to submitted questions...............................    77

                           Submitted Material

Statement of the Electronic Privacy Information Center, submitted 
  by Mr. Doyle...................................................    69

----------
\1\ Mr. Kneuer did not submit a response to questions for the 
  record.

 
                        REAUTHORIZATION OF NTIA

                              ----------                              


                       THURSDAY, FEBRUARY 2, 2017

                  House of Representatives,
     Subcommittee on Communications and Technology,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:48 a.m., in 
room 2322 Rayburn House Office Building, Hon. Marsha Blackburn 
(chairman of the subcommittee) presiding.
    Present: Representatives Blackburn, Lance, Shimkus, Latta, 
Guthrie, Olson, Kinzinger, Bilirakis, Johnson, Flores, Brooks, 
Collins, Cramer, Walters, Costello, Doyle, Welch, Clarke, 
Loebsack, Ruiz, Dingell, Engel, Butterfield, McNerney, and 
Pallone.
    Staff present: Gene Fullano, Detailee, Telecom; Kelsey 
Guyselman, Counsel, Communications and Technology; Dan 
Schneider, Press Secretary; Evan Viau, Staff Assistant; Gregory 
Watson, Legislative Clerk, Communications and Technology; Alex 
Debianchi, Minority Telecom Fellow; David Goldman, Minority 
Chief Counsel, Communications and Technology; Jerry Leverich, 
Minority Counsel; and Lori Maarbjerg, Minority FCC Detailee.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mrs. Blackburn. Good morning, everyone.
    We are delighted that you all are here and that you're 
joining us as the Communications and Technology Subcommittee is 
kicking off the 115th Congress.
    I guess kick off is the right word to use because we are 
looking at the Super Bowl this weekend. So everybody pick your 
team.
    Our subcommittee features a few new faces and also some 
familiar faces in new roles, and before we begin I'd like to 
take a moment for a brief introduction.
    Mr. Lance is our vice chairman and he is going to be a 
valuable partner in all of our endeavors. His understanding on 
the issues and his experience as a senior member of this 
committee will be a great asset to us on the subcommittee.
    I am also excited to introduce the new Republican members 
of the subcommittee: Mr. Flores, Ms. Brooks, Ms. Walters, Mr. 
Costello. We welcome their eagerness and their talents to these 
issues.
    I want to congratulate Mr. Doyle, the new ranking member. 
He has been consistently active on these issues through the 
years. I am looking forward to working with him.
    As I have so focused on these coms and technology issues 
I've appreciated the fact that Mr. Doyle kind of like me chose 
to opt himself in to the discussion on these issues and he is 
joined by three new members on his side.
    I know that he is going to be ready to introduce them in a 
few moments. Let me begin with my opening statement. Get myself 
organized here.
    As we continue the subcommittee's work, modernizing the 
laws around communications and technology and striving to 
promote innovation and investment it only makes sense to begin 
by taking a look at one of the agencies tasked with developing 
telecommunications policy.
    The last NTIA reauthorization was adopted in, get this, 
1992. It is far past time that we again reauthorize the agency 
and the first step in the process is to examine the role of the 
agency past, present and future in crafting policies that will 
achieve our shared goals.
    We are pleased to have three witnesses today that can speak 
to their experiences as head of the NTIA. We are so grateful 
for your time and for your insights and I am certain they are 
going to give us the needed perspective on the work that the 
agency has done and also, hopefully, give us some good ideas on 
how to empower the NTIA going forward.
    One of the biggest bipartisan priorities for the 
subcommittee over the years has been satisfying the demand for 
additional spectrum for commercial use.
    As the FCC winds down the broadcast incentive auction, one 
of the last opportunities for reallocation of commercial 
spectrum to other commercial users we are again turning our 
focus to federally-held spectrum. The government holds a large 
amount of spectrum and we recognize that they require much of 
it for carrying out critical government missions.
    However, we also want to be certain that the government is 
armed with the best technology and is using that spectrum as 
efficiently as possible. The dividend from this investment in 
our government agencies will be more spectrum to meet more 
broadband demands.
    Broadband deployment is America's greatest infrastructure 
challenge of this decade and it is up to us to rise to the 
occasion of meeting this demand.
    We will have long said that spectrum will need to be an all 
of the above solution and NTIA will be an essential player in 
any discussion moving forward. In additional to spectrum 
policy, NTIA plays a leading role in public safety and 
cybersecurity policy.
    They serve as a liaison for interagency cooperation and 
standard setting in both of these areas promoting safer and 
more secure communications networks.
    We have seen time and again in recent months how serious 
cyber threats are we will need to use all of our tools to 
combat these attacks, especially when it comes to critical 
infrastructure.
    NTIA has the capability to bring together a diverse group 
of government stakeholders to address the problem and develop 
best practices. We must ensure that we empower them to be 
effective and efficient in combating cyberattacks and promoting 
strong public safety networks.
    The communication sector is vibrant, thriving, and the 
government agencies that handle these issues should reflect 
that.
    Today, we are going to look at how to enable the NTIA to 
craft thoughtful telecom policy that promotes continued 
innovation and investment.
    I thank our witnesses for their thoughtful testimony and I 
look forward to a robust discussion on this important agency 
and at this time I yield 5 minutes to the ranking member.
    [The prepared statement of Mrs. Blackburn follows:]

              Prepared statement of Hon. Marsha Blackburn

    As we continue this subcommittee's work modernizing the 
laws around communications and technology, and striving to 
promote innovation and investment, it only makes sense to begin 
by taking a look at one of the agencies tasked with developing 
telecommunications policy. The last NTIA reauthorization was 
adopted in 1992. It is far past time that we again reauthorize 
the agency, and a first step in the process is to examine the 
role of the agency, past, present, and future in crafting 
policies that will achieve our shared goals.
    We are pleased to have three witnesses today that can speak 
to their experiences as heads of NTIA. I'm certain they will 
provide us with valuable perspective on the work that the 
agency has done, but also hopefully give us good ideas as to 
how to empower NTIA going forward.
    One of the biggest bipartisan priorities for this 
subcommittee over the years has been satisfying the demand for 
additional spectrum for commercial use. As the FCC winds down 
the broadcast incentive auction, one of the last opportunities 
for reallocation of commercial spectrum to other commercial 
users, we are again turning our focus to federally held 
spectrum. The government holds a large amount of spectrum, and 
we recognize that they require much of it for carrying out 
critical government missions. However, we also want to be 
certain that the government is armed with the best technology, 
and is using spectrum as efficiently as possible. The dividend 
from this investment in our government agencies will be more 
spectrum to meet broadband needs. Broadband deployment is 
America's greatest infrastructure challenge and we must rise to 
the occasion. We have long said that spectrum will need to be 
an ``all of the above'' solution, and NTIA will be an essential 
player in any discussion moving forward.
    In addition to spectrum policy, NTIA plays a leading role 
in public safety and cyber security policy. NTIA serves as a 
liaison for interagency cooperation and standard setting in 
both of these areas, promoting safer and more secure 
communications networks. We have seen time and again in recent 
months how serious cyber threats are, and we will need to use 
all tools at our disposal to combat these attacks-especially 
when it comes to critical infrastructure. NTIA has the 
capability to bring together a diverse group of government 
stakeholders to address the problem and develop best practices. 
We must ensure that we empower NTIA to be as effective and 
efficient as possible in combatting cyber attacks and promoting 
strong public safety networks. The communications sector is 
vibrant and thriving, and the government agencies that handle 
these issues should reflect that. Today, we will look at how to 
enable NTIA to craft thoughtful telecommunications policy that 
promotes continued innovation and investment. I thank our 
witnesses for their thoughtful testimony and look forward to a 
robust discussion on this important agency.

OPENING STATEMENT OF HON. MICHAEL F. DOYLE, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Doyle. Well, I want to thank you, Madam Chair, for 
holding this hearing and I want to congratulate you on your new 
role. I look forward to working with you and having a 
productive partnership and I am glad you like opt in. I do, 
too.
    I also want to thank my colleagues on the committee for 
giving me this opportunity and introduce our two new members, 
Raul Ruiz from California and Debbie Dingell from Michigan--
both good members and I think will be good members for this 
committee.
    I want to thank the outstanding panel that's here today. We 
look forward to your testimony. As the chair said, we are here 
today to discuss reauthorizing the National Telecommunications 
and Information Administration, an agency charged with 
providing the president and the executive branch with fact-
based expert policy recommendations on telecommunications, 
information, and internet issues.
    NTIA is also responsible for managing the federal 
government's use of spectrum and it has been instrumental in 
clearing government-held spectrum and making it available for 
commercial use.
    In the process, tens of billions of dollars have been 
raised for the federal government. NTIA is also working with 
federal agencies to find new and creative ways to share 
underutilized spectrum resources and that's important because 
maximizing our finite spectrum resources will be critical as we 
move to the fifth generation wireless networks and beyond.
    NTIA's Institutes for Telecommunication Sciences located in 
Colorado are key to this mission. Last year, the funding for 
this lab was 23 percent below the president's request. Our lack 
of investment here could have serious implications for this 
agency's ability to accomplish its mission.
    We want to ensure that this agency has the authority, the 
tools, and the personnel it needs to do its job. NTIA also 
plays a critical role in convening government agencies, 
industry experts and academics to tackle complex problems 
through their multi-stakeholder process.
    This process has been used to address evolving issues such 
as cybersecurity, the internet of things, UAVs, and many 
others.
    This is a well-managed, orderly, and inclusive process that 
enables the federal government to thoroughly grasp and 
effectively address complex issues, and more than that, this 
agency has repeatedly proved its worth beyond just clearing 
spectrum.
    Under the leadership of our panel, NTIA ran the DTV 
converter coupon program and the BTOP program to deploy 
broadband infrastructure and stood up FirstNet, the public 
safety broadband network authority.
    They have learned valuable lessons along the way. BTOP is 
now Broadband USA, a program to help communities expand 
broadband and promote its adoption.
    My hope is that as we talk about infrastructure investment 
in this country we look to agencies like NTIA which have 
extensive experience in this area to help manage and direct 
these investments for our future.
    My hope in reauthorizing NTIA is that we empower this 
agency to continue doing its job and that they continue to have 
a seat at the table and continue to provide fact-based advice 
to the president and others.
    Madam Chair, I'd like to ask unanimous consent to enter 
this letter from the Electronic Privacy Information Center into 
the record.
    Mrs. Blackburn. So ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Doyle. Thank you, and I would like to yield the 
remainder of my time to my colleague, Ms. Matsui.
    Ms. Matsui. Thank you very much, Mr. Doyle, for yielding me 
time.
    Today's digital economy demands that we bolster the 
invisible infrastructure supporting wireless connectivity. 
Spectrum is the building block for innovation.
    Working with NTIA we made significant progress in the last 
8 years to free up federal spectrum for commercial use. 
Congressional oversight and cooperation from the administration 
was critical. As a result, we made 300 megahertz of spectrum 
available for the wireless broadband.
    We must have continued leadership from both branches of 
government including leaders at the agencies like the 
Department of Defense to expand this progress.
    We all know there is much more work to be done. The United 
States must lead the world in 5G and I look forward to working 
with my colleagues to free up more of our nation's airwaves for 
the wireless economy.
    We have always been a nation of innovators and our spectrum 
policies should be no exception. With that, I yield back to the 
ranking member.
    Mrs. Blackburn. The gentleman yields back his time.
    Chairman Walden is not here for his opening. Is there any 
member that would choose to take a portion of his time? Then 
let me reserve that in case he makes it up and at this time--
Mr. Pallone had requested time. Is that not correct?
    Mr. Doyle. Could I claim his time to yield for one more 
minute?
    Mrs. Blackburn. Absolutely you can claim the time and 
yield.
    Mr. Doyle. Thank you, Madam Chair. I appreciate it.
    Is there any member of the subcommittee that would like to 
have time?
    Mr. Ruiz. Chair.
    Mr. Doyle. Yes, I'll yield to Mr. Ruiz.
    Mr. Ruiz. Thank you, Chairwoman and Ranking Member.
    In today's digital age, access to broadband internet is not 
a luxury. It is a great equalizer that gives millions of 
Americans the opportunity to pursue their education, find a job 
and achieve their dreams.
    But the fact is there are severe disparities in the 
deployment of broadband in my district and across the U.S., 
felt most acutely in rural areas and on tribal land.
    The National Telecommunications and Information 
Administration, or NTIA, has been instrumental in closing this 
digital divide and I am pleased to be here today to discuss how 
we can build upon their successes to better serve our 
constituents. And particularly, I want to highlight NTIA's 
Broadband USA initiative launched in 2015 which empowers local 
communities and tribes to expand their broadband capacity and 
promote broadband adoption through online and in person 
technical assistance, regional workshops and guides and 
toolkits with best practices for achieving success.
    This is a program that supports local solutions supported 
by evidence-based best practices and technical assistance and 
is a model that we should all be able to support.
    I thank the ranking member again for the opportunity to 
speak briefly about this critical program and look forward to 
working together with the members of this subcommittee to find 
solutions that move our nation forward into the digital age.
    Thank you, and I yield back.
    Mr. Doyle. Thank you. I'd like to yield some time to Ms. 
Dingell, too.
    Ms. Dingell. Thank you, Ranking Member, for yielding to me 
and I'd like to thank the chairman for holding this hearing 
today.
    I know this subcommittee oversees much of the new 
technology that's reshaping our great nation and NTIA in 
particular has helped usher in this new era of connectivity 
through its work supporting broadband deployment and clearing 
our airwaves. Every day new high-tech marvels are unveiled, 
including connected and automated vehicles, which I care a 
great deal about, which have the promise of reducing energy 
consumption and saving lives on the road.
    The continuing technological revolution is creating many 
new jobs and bringing other benefits to society. But for all 
the good this innovation brings to consumers in our economy, we 
have to ensure that no American is left behind in this new 
technological era.
    As this transition occurs, we have got an obligation to use 
every tool at our disposal to create jobs and get people back 
to work. We are going to need to train Americans for the new 
jobs that need filling and if any agency's up to the task of 
helping to solve this problem I know NTIA is.
    Keeping Americans on the job is critical to this new 
economy. It's going to be a major focus for me on this 
subcommittee. I thank the ranking member and yield back the 
time.
    Mr. Doyle. Thank you. Does anyone else seek time?
    Mr. McNerney.
    Mr. McNerney. Well, again, I thank the ranking member.
    The NTIA is the agency that's going to be advising the 
president on internet policies, on privacy and security. These 
are really important functions, especially in the age of our 
internet of things--the IoT.
    So I really advocate for a strong agency that has the 
resources to do the research and to develop policy 
recommendations that will make internet more competitive and 
will keep America's lead in the internet activities and 
telecommunications activities.
    So we have a couple of issues like the broadband map, I 
think, which needs to be updated so that we have the proper 
information, security and privacy. Very, very important.
    I've worked with the chairwoman of this committee on this 
issue and I look forward to working with you again on that. But 
again, I advocate that we have a strong NTIA to help us move 
forward working with the administration.
    Mrs. Blackburn. Gentleman yields back.
    Mr. Doyle. I yield back. Thank you.
    Mrs. Blackburn. And this concludes our member opening 
statements. I do remind all members that you've got 5 days for 
submitting those opening statements.
    They are all going to be made a part of the record and we 
know that several of our members are on the member bus coming 
back from the prayer breakfast and they are not here at this 
time.
    We want to thank our witnesses for being here with us today 
and for taking their time and for submitting that testimony 
early. That's always a good thing.
    Our panel features three witnesses who are testifying today 
in their capacity as former administrators of the NTIA.
    They are the Honorable John Kneuer, who served as the 
assistant secretary of commerce for communications and 
information and administrator of NTIA from February 2006 to 
November 2007. Welcome.
    The Honorable Meredith Attwell Baker, who served as the 
acting assistant secretary of commerce for communications and 
information and acting administrator of NTIA from November 2007 
to January 2009. Welcome.
    And Ms. Anna Gomez, who was the acting assistant secretary 
of commerce and acting administrator of NTIA from February 2009 
to June 2009. Ms. Gomez continued to serve the NTIA as deputy 
assistant secretary and deputy administrator of the NTIA until 
2013.
     We appreciate all of you, each of you being here today and 
preparing for this. We will begin the panel with you, Mr. 
Kneuer. You are now recognized for 5 minutes to give an opening 
statement.

STATEMENTS OF THE HONORABLE JOHN M.R. KNEUER, FORMER ASSISTANT 
     SECRETARY FOR COMMUNICATIONS AND INFORMATION, FORMER 
ADMINISTRATOR, NTIA, PRESIDENT AND FOUNDER, JKC CONSULTING; THE 
   HONORABLE MEREDITH ATTWELL BAKER, FORMER ACTING ASSISTANT 
  SECRETARY FOR COMMUNICATIONS AND INFORMATION, FORMER ACTING 
 ADMINISTRATOR, NTIA, PRESIDENT AND CEO, CTIA; ANNA M. GOMEZ, 
   FORMER ACTING ASSISTANT SECRETARY FOR COMMUNICATIONS AND 
INFORMATION, FORMER ACTING ADMINISTRATOR, NTIA, PARTNER, WILEY 
                              REIN

                 STATEMENT OF JOHN M.R. KNEUER

    Mr. Kneuer. Thanks very much.
    Good morning, Chairman Blackburn, Ranking Member Doyle, 
members of the committee. It was indeed my privilege to serve 
at NTIA as both the Deputy and the Assistant Secretary from 
2003 to 2007.
    Since that time in private life I have served as a board 
member, a consultant, and an advisor to various companies and 
institutions that have an interest in telecommunications and 
technology markets.
    But I want to stress I am here today in my personal 
capacity and all of my views are my own.
    So while NTIA has developed a diverse portfolio of issues 
over time, its core mission can really be broken down into two 
functions: the policy coordination and policy advisory for the 
president function and as the manager of the federal government 
spectrum.
    Because of this dual responsibility, NTIA occupies an 
important intersection of telecommunications policy in industry 
as well as our national and homeland security.
    But to be most effective I think any reauthorization 
statute should focus NTIA on those areas where its core 
competency can be leveraged to maximum effect.
    With regards to policy coordination and development, under 
the existing statute NTIA administrator serves as the 
president's principal advisor on telecommunications policies 
pertaining to the nation's economic and technological 
advancement and to the regulation of the telecommunications 
industry.
    This is a very, very broad mandate that can be read to 
include essentially policy area that affects the 
telecommunications and technology markets.
    However, in my experience at NTIA I think it's at its most 
effective when it focuses its policy coordination efforts on 
those areas of its unique responsibility, namely, this 
intersection of commercial and government interests.
    Now, one very obvious example is with regard to cyber. 
Cybersecurity is an issue that cuts across commercial interest 
as well as very important government equities. By providing the 
perspective of industry and the experience that NTIA has there 
into the interagency process, NTIA can help bridge the gap 
between the executive branch interests and executive branch 
entities that have national and homeland security 
responsibilities and the key private sector interests that also 
support our collective cyber defenses.
    Similarly, NTIA can serve as a conduit from government 
agencies with cyber experience back into the private sector so 
they have that information flow as well.
    With regards to spectrum management, I think as Secretary-
designee Ross stated in his confirmation hearing testimony, the 
Department of Commerce has to work with Cabinet departments to 
free up more spectrum to meet our critical demand for 
broadband, and it's not just broadband but it's also autonomous 
vehicles, the internet of things, the range of spectrum-
dependent industries that are proliferating across the economy. 
All have spectrum demand and we need to manage that properly. 
But this doesn't have to be a zero sum transaction where 
industry's gain is agency's loss.
    With thoughtfully crafted policies, Cabinet departments, 
and agencies benefit both from commercial industry 
technological developments that produce not only spectrum 
efficiencies but also new mission critical capabilities for 
government services, and then the revenue from spectrum 
auctions can also be used to fund these critical government 
facilities and ease budget pressure.
    Because of its exposure to both industry and government 
agencies, NTIA can help ensure that the spectrum relocation 
results in both positive benefits for industry and the 
government, and I think it had been mentioned by multiple 
comments the ITS labs in Boulder can also help with cutting 
edge research in that regard.
    There are, however, limits to NTIA's authority. As a sub-
Cabinet agency in a single department it's beyond NTIA's 
authority to dictate to other Cabinet departments their 
spectrum and capital budget allocations and resources.
    However, there is one section of the existing authorizing 
statute that I think should be examined for potential 
clarification in any future reauthorization.
    Under existing law, NTIA is authorized to advise the 
director of OMB on the development of policies relating to the 
procurement and management of federal telecommunication 
systems.
    In the past, this authority has been effective in combining 
NTIA's expertise with OMB's government wide authority to 
promote spectrum efficiencies. I think there is untapped 
potential in that relationship.
    So, again, I appreciate the opportunity to testify and I'll 
remain available to the committee as you consider the 
authorization of this agency and I'll look forward to any 
questions.
    [The statement of Mr. Kneuer follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Blackburn. I thank you, and Ms. Baker, you're 
recognized for 5 minutes.

              STATEMENT OF MEREDITH ATTWELL BAKER

    Ms. Baker. Terrific. Good morning. My name is Meredith 
Attwell Baker and I'm President and CEO of CTIA.
    I first wanted to offer my congratulations to both Chairman 
Blackburn and Ranking Member Doyle on your new roles. We 
applaud your longstanding commitment to ensuring that all 
Americans have access to global-leading communications.
    As the head of an association that cares deeply about 
spectrum policy and as a previous acting administrator of NTIA, 
it's an honor to be a witness at this subcommittee's first 
hearing.
    Your focus today on the reauthorization of NTIA rightfully 
underscores the importance of this organization to so many of 
our shared and bipartisan objectives.
    Serving alongside my colleagues at NTIA was a distinct 
honor. I have the highest opinion of the extremely talented and 
surprisingly small staff. From the digital television 
transition that I helped lead to the AWS-1 and AWS-3 auctions 
they helped enable, NTIA plays a critical role in our nation's 
communication future in close collaboration and with guidance 
from this committee.
    While NTIA serves many important functions, I want to focus 
my remarks on spectrum. As a nation, we need to have advanced 
communication networks to support mission critical government 
programs and we need to continue to lead the world in 
commercial wireless services.
    NTIA plays a unique role seeking out win-win situations for 
government and commercial users. They leverage new technologies 
and auction revenues to provide government agencies more 
efficient and effective systems.
    In doing so they provide our industry with access to 
critical new spectrum to better serve all of us. I hope this 
reauthorization process can help empower NTIA to advance its 
mission and ensure government and commercial users have the 
communications resources they need. I believe we can benefit 
from the lessons learned from prior reallocation efforts to 
strengthen NTIA's role.
    First, we should ensure that NTIA has the technical 
resources and expertise it needs to serve as an impartial 
mediator of future spectrum disputes.
    For example, I hope we focus on NTIA's engineering lab, 
ITS, and its ability to do cutting edge research with both 
government and commercial partners. The lab has always played 
an important role in AWS-1 and AWS-3 reallocation efforts.
    Similarly, NTIA should be able to provide agencies with the 
R&D support needed to evaluate potential sharing and 
reallocation efforts. Hand in hand with those technical 
resources, NTIA would benefit from greater transparency tools 
to better hold agencies accountable for their spectrum use and 
to simplify this committee's important oversight role.
    In my mind, given the importance of our sector to the 
economy it is also overdue to elevate the NTIA administrator to 
an Under Secretary level to better reflect their role as the 
president's principal advisor on communications.
    Strengthening NTIA now is particularly important. We are 
about to have a revolutionary breakthrough in the next 
generation of wireless, known as 5G. These networks will be 10 
times faster and five times more responsive than today's 
networks.
    They will be able to support 100 times more wireless 
devices, from beacons to wearables, and that will unlock 
powerful benefits in communities of all sizes from Clarksville, 
Tennessee to McKeesport, Pennsylvania.
    America's wireless industry is ready to make significant 
new investments to bring these benefits to communities all over 
the country.
    One recent study estimates that wireless operators will 
invest $275 billion over the next decade to deploy 5G. That 
investment is projected to create a new 5G job for every 100 
Americans--three million total jobs.
    In local communities, increased 5G connectivity will mean 
officials can more quickly respond to emergencies. It will make 
our roads safer. Smarter energy solutions will lower our 
monthly bills and mobile health care systems will instantly 
connect patients with doctors. The speed with which these 
benefits reach all Americans will largely depend on decisions 
made here in Congress at NTIA and at the FCC. We need an 
infrastructure policy to support denser networks with new small 
cells, hopefully a future topic for another hearing soon.
    And we need a plan for 5G spectrum with a clear pipeline of 
new commercial spectrum under NTIA's steady hand. The wireless 
industry is ready to invest in what's next.
    We hope this committee will continue its record of helping 
make that happen, help us create jobs and, most relevant for 
today, help empower NTIA to provide for all Americans' 
communications needs.
    Thank you.
    [The statement of Ms. Baker follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Blackburn. I thank you.
    Ms. Gomez, you're recognized for 5 minutes.

                   STATEMENT OF ANNA M. GOMEZ

    Ms. Gomez. Good morning, Chairman Blackburn and Ranking 
Member Doyle, distinguished members of the subcommittee. Thank 
you for the opportunity to appear before you to share my 
thoughts regarding the important work NTIA performs.
    I had the honor to serve as NTIA's deputy administrator 
from 2009 through March 2013 and a short stint as acting 
administrator as well. I am proud to have served our nation 
alongside the many committed professionals at NTIA and the 
Department of Commerce.
    Given technology's large and growing contribution to our 
broader economy, sound policy that supports investment and 
innovation is critical. NTIA has an important and often 
underappreciated portfolio in this regard.
    First and foremost, Congress and through this committee's 
efforts in 1992 enshrined NTIA's authority to serve as the 
president's principal advisor on telecommunications.
    As such, NTIA is responsible for formulating the 
administration's telecommunications and information policy, a 
role that has grown in importance and breadth with the 
evolution of a digital economy.
    NTIA enables the federal agencies to have access to 
spectrum to meet their mission needs and has played an integral 
role in making additional spectrum for wireless broadband uses. 
NTIA also provides valuable research and analysis to inform 
efforts to identify additional spectrum efficiencies and 
potential opportunities to increase spectrum access for all 
users.
    With increasing demand for wireless technologies showing no 
signs of abating, the need for an experienced and knowledgeable 
manager of our federal agency spectrum resources is ongoing.
    NTIA also play an important role in developing internet 
policy. American businesses in the digital space both large and 
small depend on an online ecosystem that has the confidence of 
all users.
    NTIA should continue convening multi-stakeholder processes 
to address policies that affect the internet and it's also very 
important that NTIA be at the table in policy discussions both 
domestically and internationally related to practices that may 
affect the digital economy and that it continue its strong 
voice in the internet domain name system.
    NTIA has also focused on increasing broadband access and 
adoption. The Broadband Technology Opportunities Program helped 
build lasting projects that increase access and adoption of 
broadband throughout the country.
    NTIA also co-chairs the Broadband Opportunity Council, an 
interagency effort to produce recommendations to increase and 
do remove barriers to broadband deployment, competition, and 
adoption.
    And through its Broadband USA program NTIA sponsors a 
series of publications, webinars, and conferences designed to 
help stakeholders overcome broadband access and adoption 
obstacles.
    NTIA also helps ensure that the nation's telecommunications 
resources adequately support the needs of public safety.
    NTIA administers grants to promote Next Generation 911 and 
works with FirstNet, an initiative that is near and dear to my 
heart. I believe strongly in its mission to provide broadband 
services to all first responders.
    NTIA also works with NIST on the public safety 
communications research program whose laboratories provide 
research, development, testing, and evaluation to foster 
nationwide interoperability in communications.
    These highly valuable programs will help provide the 
nation's public safety the technology they need to keep their 
communities and themselves safe.
    In conclusion, NTIA should continue its important role 
coordinating federal policies in areas such as spectrum, 
broadband, internet policy, public safety, and research. In an 
area like technology policy where there are many agencies with 
overlapping jurisdiction, it is critical to have an agency like 
NTIA to shepherd interagency activities and to bring some 
thought and rigor to priorities and interagency coordination so 
there is less duplication of effort.
    One example is with policies regarding the internet of 
things. Myriad agencies have oversight over different 
components of the IoT. IoT implicates spectrum policy, 
cybersecurity, privacy concern, among others.
    In the absence of a central approach to governance, we risk 
having inconsistent and burdensome requirements. NTIA can and 
should play an important role in convening and guiding the 
numerous agencies and ensuring consistent federal policies that 
promote innovation.
    NTIA also should continue its efforts to identify barriers 
to broadband deployment and to push interagency efforts to 
streamline processes or eliminate requirements that show down 
that deployment. In addition, NTIA is well positioned to manage 
any grants or other infrastructure funding that would promote 
broadband access and adoption. Any new program would benefit 
from the NTIA's prior expertise and experiences.
    I want to thank you again for allowing me to share my 
thoughts with you this morning and I look forward to answering 
any questions you may have.
    [The statement of Ms. Gomez follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Blackburn. The gentlelady yields back and we thank you 
all for being here.
    We will now move to questions and Mr. Kneuer, I would like 
to begin my 5 minutes of questions with you.
    As I've reviewed the testimony from each of you and we have 
looked at the number of different funds, and you alluded to 
this in your testimony and all of you did actually, how it is 
spread out over different agencies. And I know Commissioner 
O'Reilly at the FCC has also commented on his concerns with the 
way sometimes we don't have one hand knowing what the other 
hand is doing or the agency across the street hasn't 
coordinated.
    And so as you were saying, Ms. Gomez, you end up with this 
duplication of effort. What I'd like to hear from you is how 
best can NTIA work to coordinate those funds and you touched on 
this when you talked about advising the OMB director.
    And then what would you propose for them as they look to 
coordinate those funds and utilize those dollars to the 
maximum?
    Mr. Kneuer. Sure. I think, as you pointed out and Mr. 
O'Reilly pointed out, lack of coordination is a fundamental 
challenge and problem where you've got so many different pools 
of money under different control.
    But I think there is also not just different institutions 
managing these pools of money. They sometimes have slightly 
different views and agendas. So some of these pools of money 
are for loans versus some are for grants, some are focused on 
underserved areas versus unserved areas.
    I think the path is, and particularly as you consider 
reauthorization of NTIA, taking a broader look and 
collaborating with other committees of jurisdiction, working 
with the executive branch, working with OMB to the extent 
possible to bring these under a single area of planning and 
oversight so that the money that we are spending is focused, 
it's accountable.
    It gets to with the highest priority on unserved area, 
places that really have no opportunity to take part in the 
broadband economy whether it is tribal lands or very rural 
areas but a consolidation and coordination of effort and I 
don't know if it'll be possible to make a singular place of 
focus. But the challenge is going to be to tighten it up as 
much as possible.
    Mrs. Blackburn. OK. So singular point of focus--if that's 
the goal then is NTIA the best place to house that?
    Mr. Kneuer. In the executive branch I would certainly think 
that.
    Mrs. Blackburn. You would say so? OK. That's great.
    Mr. Kneuer. You've got still the other options under the 
FCC. But NTIA, having the function of working directly with the 
FCC, is the one place in the executive branch that has the 
expertise. I think the logical locus would be NTIA.
    Mrs. Blackburn. OK.
    Ms. Gomez, I saw you making notes so I know you have 
something you want to add.
    Ms. Gomez. Actually, I was just making notes on what you 
said. But I agree that coordination is very important. One of 
the things that NTIA did with BTOP was it--as part of its stage 
of reviews of grants was to make sure that it got input from 
industry and from the local governments and from others to make 
sure there was not duplication of efforts or that they were not 
targeting already served areas. There is always room for 
improvement but I do think it's a good role for NTIA.
    Mrs. Blackburn. OK.
    Ms. Baker, I want to ask you a little bit about the 5G 
deployment. I see this is siting, utilization of health care 
informatics. I am from Nashville. This is something that people 
are working on every single day.
    This is something we want to go quickly and I am about out 
of time and I really want to get through this. Is there 
anything that NTIA can and should do that would help facilitate 
the 5G deployment? And about 30 seconds on that because I've 
got one more item.
    Ms. Baker. Absolutely. I am glad you asked the question. We 
can talk about health care in the future. But I think the core 
functions that NTIA serves to streamline siting would be very 
helpful, streamline and simplify siting these small sites that 
need to be put up for 5G is critical for the rapid deployment--
--
    Mrs. Blackburn. OK.
    Ms. Baker [continuing]. And I think we are going to need 
more spectrum so we need to work on a spectrum pipeline for 
commercial wireless.
    Mrs. Blackburn. That is terrific. I appreciate that, and 
what I want each of you to submit, since I am out of time, if 
you were the one with the pen and the pad working out the 
reauthorization of the NTIA and modernizing the agency, what 
would you see as the five critical items and what did you see 
as the biggest stumbling blocks?
    If you'll submit that for the record then I will turn and 
yield 5 minutes to Mr. Doyle.
    Mr. Doyle. Thank you very much.
    Ms. Baker, I believe that spectrum like roads and bridges 
are part of our critical infrastructure and I am starting to 
work on some legislation to free up at least an additional 20 
megahertz of federal spectrum below 3 gigahertz available for 
commercial use. Would that be something your association and 
industry would support?
    Ms. Baker. Absolutely. I think the low-band spectrum is 
really critical. I think the FCC has done a good job this 
summer in bringing forth some high-band spectrum. But if you 
look at a place like Montana that hasn't been sited there is 
been a recent low-band spectrum that's been released there that 
has caused the deployment of siting in Montana.
    So I think that's--it is very important for the future that 
we have low, middle and high-band spectrum.
    Mr. Doyle. Great.
    Ms. Baker. So we absolutely support that.
    Mr. Doyle. Well, Madam Chair, maybe that's something we can 
make part of this reauthorization or perhaps as a standalone or 
one of the proposed infrastructure packages. I'd certainly be 
interested in working with you on that if you're interested. 
Thank you.
    Ms. Baker and Ms. Gomez, you both worked on spectrum 
issues. How important do you think it is that NTIA lab in 
Colorado is fully funded and tell us a little bit about what 
types of research the lab does and what role they play in 
freeing up federal spectrum and do you see that as critical to 
the future of federal spectrum policy?
    Ms. Baker. I'll be happy to go first.
    As I mentioned in my testimony, I think ITS is a critical 
part of future questions in spectrum. I personally think that 
spectrum is a scarce resource. It's becoming more and more 
difficult as we move forward.
    Some place like ITS can help us figure out how we can share 
where spectrum is critical and where it can be geographically 
shared or some other sort of sharing. It was very helpful in 
AWS-1 as well as AWS-3 to figure out how to move critical 
government agencies' missions to different spectrum.
    Mr. Doyle. Ms. Gomez.
    Ms. Gomez. I agree. ITS, which is the Institute for 
Telecommunication Sciences, served as a valuable resource to 
NTIA's Office of Spectrum Management in identifying spectrum 
and how it's being used.
    They perform spectrum surveys that assist with this kind of 
planning that we are talking about. Their deployable team and 
measurement system go to sites.
    They identify sources of interference. They, as Meredith 
mentioned in her opening statement, performed spectrum 
occupancy measurements in support of the AWS auction 
preparations, which helped industry better understand the 
nature of the federal operations.
    They perform system to system measurements. Basically, they 
are an objective and neutral arbiter of these issues--
technology issues, technical issues--as we move forward with 
trying to identify more spectrum and trying to get more 
efficient usage of the spectrum we have today.
    Mr. Doyle. Thank you. Let me ask you also, Ms. Gomez, as we 
look at the challenges of repacking stations as part of the 
incentive auction, do you believe that public 
telecommunications and facilities program if funded could play 
a role in assisting public stations and making the investments 
necessary to continue operating?
    Ms. Gomez. Yes. As you know, that program was defunded some 
years ago and but it would have, if it were still funded, been 
able to provide valuable support to these public television 
stations.
    Mr. Doyle. And let me ask you all, too, during your time at 
NTIA what benefit did you see to having an agency act as an 
interagency coordinator on telecommunications and what can 
Congress do to strengthen that role to ensure that NTIA has a 
seat at the table when government agencies are discussing 
technology and telecommunications issues?
    If you could each just take maybe 10 seconds because I have 
one more question.
    Ms. Gomez. So NTIA is in this unenviable role of trying to 
herd other federal agencies, not just with spectrum but with 
other policies, and pull them away from their own missions to 
try to provide resources for the administration's 
telecommunications policy and spectrum policies.
    So anything Congress can do to help bolster NTIA's position 
vis-a-vis those other agencies would be very helpful.
    Ms. Baker. I think NTIA's coordinating and convening role 
is critical. I think three things really will help NTIA. I 
think an elevation of title to Under Secretary helps. I think 
transparency as to what they are working on will help and I 
think that being able to play the traffic cop for NTIA is also 
a very critical function that they perform.
    Mr. Doyle. And let me just close by saying that, Ms. Baker, 
I received a letter from not only your association but several 
associations and I know this isn't relative to NTIA 
reauthorization but asking us to use the Congressional Review 
Act to repeal FCC's privacy order.
    I just want to say for the record that I was disappointed 
to get that letter from these associations and that you would 
urge Congress to use such a blunt and untested tool to remove 
privacy protections for hundreds of millions of Americans. I 
think there is a better way to work on that issue and I look 
forward to doing that with you.
    Thank you, Madam Chair.
    Mrs. Blackburn. Mr. Lance, you're recognized for 5 minutes.
    Mr. Lance. Thank you very much, Madam Chair.
    To the entire panel, the Spectrum Pipeline Act updated 
existing law to ensure federal agencies have the necessary 
resources to undertake research and development activities that 
would result in freeing up more spectrum for commercial mobile 
broadband.
    The act provides very specific instructions on when and how 
the federal agencies may gain access to the $500 million 
provided under the act.
    To the distinguished members of the panel, how do you think 
NTIA could further safeguard the expenditure of this R&D fund 
so that it funds activities that would truly improve the 
efficiency and effectiveness of federal spectrum use?
    Mr. Kneuer. There was originally money for similar purposes 
in the Commercial Spectrum Enhancement Act as part of the 
relocation funds for agencies.
    So agencies would get some of the auction revenue for 
relocation purposes and I think one of the challenges with that 
process is that agencies had expenditures they wanted to make 
that they believed would give them the ability to be more 
efficient going forward but it wasn't tied directly to their 
immediate relocation efforts.
    They were looking for spending money on tools that they 
could apply in multiple scenarios with multiple different 
projects.
    I think the money in the Pipeline Act sort of fills that 
purpose. I think for it to be most useful, again, it's 
coordination, having some ability to test, OK, how is that 
money being spent and, again, I think the ability for NTIA to 
be effective in an arbiter of that is leveraging their 
relationship with OMB, that you can export the expert judgment 
of NTIA into the agency with the authority that can green light 
those projects, which would be OMB.
    Mr. Lance. Very good.
    Ms. Baker.
    Ms. Baker. So I think John is right. I think one of the 
lessons that he's learned is that the spectrum relocation fund 
shouldn't just fund the move.
    It should fund the planning that goes into what a future 
move should be and how that should be coordinated. So I think 
that's one of the lessons that we have learned that I think has 
been very good. I think that also the qualitative analysis that 
NTIA has done has been very good. But I think it's this 
committee that usually instructs.
    If you pick two targets that NTIA can fulfill then and 
focus on, I think that oversight of this committee has really 
been critical to future spectrum allocations.
    Mr. Lance. Thank you.
    Ms. Gomez.
    Ms. Gomez. I would say that the Spectrum Relocation Fund 
and the changes that were made in the Pipeline Act actually 
have helped motivate the agencies to think ahead and to plan. 
So it's an important process and I do think it was very 
important to provide the funding for that planning.
    The technical panel that reviews these investments, so to 
speak, is already providing a lot of rigor to the process in 
determining the funding is being utilized for the reasons that 
it should be and I would not want to add more process to that, 
given that you have the voice of NTIA, OMB and the FCC as part 
of that process.
    Mr. Lance. Thank you.
    Ms. Gomez, you noted that the NTIA plays a critical role in 
public safety communications including a role in the future of 
the FirstNet public safety broadband network.
    NTIA's role in public safety communications and in the 
FirstNet is relatively new. The last time NTIA was authorized 
there wasn't a FirstNet.
    Given that fact, on what should we focus as we reauthorize 
NTIA regarding this critical component, moving forward?
    Ms. Gomez. NTIA works with FirstNet. FirstNet is an 
independent agency but it's housed within NTIA, and then NTIA 
has some responsibilities that go hand in hand with FirstNet's 
responsibilities.
    It is the one that approves or provides grants to the 
states. If states decide not to participate in the FirstNet 
deployment then NTIA is the one that will run that process and 
they will also be the ones that approve spectrum leases for any 
states that choose not to participate in the FirstNet 
deployment within the states.
    So I think that NTIA will continue to have responsibilities 
to its overseers to respond to its particular role within the 
larger endeavor. It needs to support FirstNet to the greatest 
extent possible. It's a large undertaking. It's unprecedented. 
So this committee's oversight and support would be very 
important to it.
    Mr. Lance. Thank you very much.
    Madam Chair, I yield back two seconds.
    Mrs. Blackburn. Way to go. We are running on time today.
    Mr. Loebsack, 5 minutes.
    Mr. Loebsack. Thank you, Madam Chair.
    I do want to thank the subcommittee for holding this 
hearing today and thank the witnesses for your expert testimony 
regarding the important role NTIA has to play in our nation's 
technology policy.
    And again, I note that I can't believe it's been since 
1992, although knowing how Congress works I guess it's not 
surprising. But so many things have changed since that time. 
And so I really appreciate the chair's request that you provide 
in writing those five items regarding modernization.
    I think that makes complete sense, and then we can all have 
access to that so we know what we are talking about because so 
many things have changed, as Mr. Lance just said, with respect 
to FirstNet.
    We didn't really have any of that. We didn't have a lot of 
things in 1992. But I also want to make sure that I emphasize 
that when we do the reauthorization, assuming that we get there 
and that may be a big assumption, but when we get there make 
sure that we provide the funding for that reauthorization too 
because just going briefly over what NTIA does there is so much 
that it does and so the funding is going to be absolutely 
necessary.
    I am from southeast Iowa. I continue to harp on rural 
broadband. I'll do that until my dying days, no doubt, even 
when I am not in Congress and, of course, yesterday we had a 
great rollout of our bicameral bipartisan Rural Broadband 
Caucus.
    We all know that upwards of 49 percent of rural America 
really isn't adequately provided for when it comes to 
sufficient broadband.
    And we really know that, obviously, around the country, the 
beginning of the 21st century we have to have that kind of 
coverage out there in rural America. Rural America simply will 
not survive, let alone thrive if we don't have broadband.
    Everybody on this committee knows that. I appreciate even 
the folks who are from the urban areas here who do support this 
expansion of rural broadband.
    There has been a lot of talk on the infrastructure front, 
as we know, with the new president. I think we have bipartisan 
support for significant infrastructure improvements around the 
country and we are talking perhaps as much as $20 billion for 
broadband development.
    And I guess I'd like to ask all three of you, if you could, 
to weigh in. What are the lessons learned from NTIA's role in 
supporting broadband infrastructure development in the past?
    How can these programs be updated to bring more broadband 
to underserved communities, assuming that we--and, again, it 
may be a big assumption but assuming in the coming months 
perhaps we get a pretty significant infrastructure investment 
in broadband.
    Can you speak to that, all of you, please?
    Mr. Kneuer. Sure. I think one of the stats that Meredith 
referenced, close to $300 billion in new cap ex from industry 
over a decade.
    These industries are spending an enormous amount of money 
and they have incentives to spend a great deal of money. But 
that incentive is tied to places where they've got enough 
population density for their returns----
    Mr. Loebsack. Exactly.
    Mr. Kneuer [continuing]. On capital. So the challenge is to 
closely monitor and evaluate where those market failures exist.
    Mr. Loebsack. Right.
    Mr. Kneuer. All of these companies are in competition with 
one another. The value of the network increases to the extent 
it can reach other places. It's more valuable to us in 
Washington, D.C. if we know that we can reach people in every 
part of rural America.
    So there is certainly a will and a desire to spend private 
money. There is a manifest will and desire to lever the private 
money with government expenditures in those places that we can 
identify and I think it's going to be a combination of 
leveraging those two pools of capital in a focused way so that 
the money gets to people where it's needed and new incentives 
for the private sector to counter those market failures that 
may not be direct expenditures of grants but it could be tax 
benefits and other things. But it's measuring, focusing, and 
being deliberate about it.
    Mr. Loebsack. Thank you.
    Ms. Baker.
    Ms. Baker. So I think, as you know, I was privileged to be 
at the Rural Caucus roll-out----
    Mr. Loebsack. Thank you for being there.
    Ms. Baker [continuing]. And I support both the House and 
Senate bipartisan Rural Caucus. It's a wonderful endeavor to 
see and very important.
    As you said, 1992 is the last reauthorization. 1997 was 
when Steve Jobs first introduced the smart phone, and so that 
was 10 years ago.
    The computing power of the smart phone led to our 3G 
networks and in the 10 years that's now led to our 4G networks 
and what we have now is these data driven very fast and what I 
am talking about for 5G, which is coming probably in the next, 
we have trials all over America, 10 times faster network is 
going to be gigabit fast.
    So it will actually be a substitute for your wired 
broadband. So I think we need to be careful when we define 
broadband to make sure that we encompassed the fast growth of 
these networks and how quickly they are turning over and 
improving.
    I do want to say that the most important thing that NTIA 
can do and that we can do as in oversight and as an industry is 
to streamline the siting to make sure that these networks can 
roll out fast.
    Mr. Loebsack. Thank you.
    Ms. Baker. And they will also need more spectrum.
    Mr. Loebsack. Thank you.
    Ms. Gomez. If that's OK, Madam Chair.
    Mrs. Blackburn. Oh, yes.
    Ms. Gomez. OK. Some of the lessons that we learned, the 
importance of a broad perspective in the community--we want to 
make sure that we have both the deployment and the adoption and 
so those economics are very important.
    Secondly, the importance of sustainability--we don't want 
to have stranded investments. You want to make sure that it 
actually continues and one of the big successes of the BTOP 
program is that 98 percent of its projects continue to operate 
today.
    And then, finally, making sure that whoever gets funding, 
whether through the Universal Service program or through other 
grants, has the institutional knowledge and structure that it's 
going to be able to succeed.
    That's also part of sustainability. So these are all 
important lessons learned.
    Mr. Loebsack. Thank you for indulging, Madam Chair.
    Mrs. Blackburn. And the gentleman yields back, and Mr. 
Shimkus.
    Mr. Shimkus. Thank you, Madam Chairman. Thank you also for 
holding this hearing in our conference and I think really on 
both sides part of our responsibility is just oversight and 
then the focus on addressing reauthorization of agencies is 
key. So your expertise is welcome and we look forward to moving 
forward. So it's the focus.
    So you all have been here before. We have worked with you 
closely for many, many years. So it's--for those of us who've 
been up here it's comfortable and we have got great trust and 
faith in your expertise in your sector.
    So let me start by going to Meredith. The committee 
received the management plan developed by NHTSA and NTIA for 
administering $115 million in grants to update public safety. 
You all know that I've been involved with Anna on the public 
safety 911 stuff.
    It appears that most of the actions are generic agency 
actions that each agency could perform separately or jointly. 
What specific expertise or contribution does NTIA bring to the 
table apart from what NHTSA brings to the table? Does the 
burden of coordinating with a separate agency outweigh the 
benefits of the added perspective of the second agency?
    Ms. Baker. Good question.
    Mr. Shimkus. Yes.
    Ms. Baker. Yes. I would say I think one of the most 
important things NTIA does is its convening role and I think 
some of the joint roles, whether it's been public safety 
interoperability with Department of Homeland Security or NHTSA, 
the future of these networks is health care.
    The future of these networks is Connected Cars. The future 
of these networks are financial institutions. So I think 
communications will cover every part of our lives and so this 
convening role only gets more important for NTIA.
    Mr. Shimkus. So I think that it's better to talk and maybe 
lose a little efficiency there but in the long run that's a 
better process?
    Ms. Baker. I think it's important for--we have a Connected 
Car Coalition that we work with the auto industry. I think it's 
important because our jurisdictions have traditionally been so 
different but yet our lives are now intertwined. I think it's 
important for us to understand both the history and the future 
of the industries.
    Mr. Shimkus. Thank you.
    Anna, could you discuss your experience and role of NTIA in 
the International Telecommunications Union?
    When I was doing other things involved in the sector I was 
not that excited about that. But there are some benefits that I 
am going to try to raise.
    As you know, this is an organization where international 
spectrum allocation decisions are made which to me makes it 
seem fairly important that the U.S. participate in a robust way 
to maintain a voice in those decisions.
    In your view, does the United States benefit from its 
membership in ITU and is it important that we have a forum like 
ITU?
    Is it able to accommodate our commercial, defense, and 
other interests and does NTIA have the appropriate authority 
and tools to participate in this new regime?
    In international discussions I think this might be more 
important. Do you want to comment on those?
    Ms. Gomez. Yes, absolutely.
    NTIA is very involved at the ITU both on the spectrum side 
for allocations. NTIA works closely with the FCC, with the 
Department of State to represent the federal agencies' 
interests and the administration's interests.
    It also participates in other areas, including internet 
governance. So yes, NTIA's role is very important and it should 
continue.
    The ITU is important to both the health of our spectrum 
management system as well as for companies, for example, that 
build to standards and to be able to have interoperability--
global interoperability so that they can continue to 
participate in the global economy and not have that hindered by 
lack of participation.
    The U.S. voice at the ITU is very strong and it needs to 
continue to be strong to reflect the status of our economy 
versus, I guess, everyone else.
    Mr. Shimkus. Thank you very much, Madam Chairman.
    I am finished and I yield back.
    Mrs. Blackburn. Gentleman yields back 53 seconds on the 
clock. We are doing well. Mr. Ruiz, you're recognized 5 
minutes.
    Mr. Ruiz. Thank you very much.
    In 2009, the NTIA was tasked with administering $4 billion 
in grants to increase broadband access and adoption in 
underserved and unserved areas of the country.
    I understand the NTIA invested $3.3 billion into 
infrastructure projects, which 98 percent of those funded 
projects still operating and serving communities across the 
country.
    I represent a remarkably diverse district with 11 tribal 
nations, underserved, desert farm worker communities like 
Thermal and Mecca, small desert communities like Chiriaco 
Summit and rural mountain communities like Anza. So no one 
solution will address the broadband needs of the people and the 
geography that I serve.
    So, Ms. Gomez, in your testimony, you referenced the 
Broadband USA initiative and how NTIA is using this program to 
continue helping communities and tribes across the country 
increase their access and adoption of broadband. Can you 
elaborate on how Broadband USA might be able to help the 
diverse set of communities I represent and in particular how 
tribal governments might be able to benefit from the Broadband 
USA initiative?
    Ms. Gomez. What NTIA did was as it starts winding down its 
BTOP program it has the staff that has this great expertise and 
knowledge now in both how to deploy infrastructure in unserved 
and underserved areas including tribal areas, as you mentioned, 
and also how to ensure adoption because, you know, if we build 
them and they don't come that's not a good thing.
    So we have this great staff now that has this technical 
expertise so their goal is to provide as much technical 
assistance as possible.
    Mr. Ruiz. How does a tribe or a school district get this 
support? What do they have to do?
    Ms. Gomez. Well, first of all, NTIA puts together webinars. 
They put together seminars. They can reach out to the NTIA or 
NTIA can do the opposite in order to make sure that they go to 
locations where these tribes are.
    They've put together a toolkit specifically for tribal 
broadband deployment and NTIA also, through the Broadband 
Opportunity Council, is working with the Department of Interior 
to also have programs to reach out to the tribes on these 
issues.
    Mr. Ruiz. Thank you.
    So on another topic, as an emergency medicine physician 
your testimony on the First Responder Network Authority, or 
FirstNet, was equally near and dear to my heart and in trauma 
situations communications between first responders and 
physicians in the emergency department can be critical to the 
survival and well-being of a patient.
    So what have you done and what is NTIA doing to ensure 
FirstNet's network deployment is patient centered and focuses 
on improving outcomes and saving lives?
    Ms. Gomez. FirstNet's mission is to deploy this network but 
there is no requirement that any public safety entity actually 
participate in it.
    So FirstNet has very wisely paid a lot of attention to the 
needs of every segment of the first response community and they 
need to continue to do so.
    They are engaging currently and will continue to engage in 
consultation with each state and territory to make sure that 
those needs are met because the only way they succeed is if in 
fact public safety sees the value of the network.
    Mr. Ruiz. And so what can Congress do to help EMS systems 
engage with FirstNet and help foster that kind of relationship 
and promote those services?
    Ms. Gomez. I think communication is very important. What we 
find is that the state at the high level is very engaged in 
FirstNet but it's not necessarily at the very local level.
    So the more we can reach into those localities and make 
sure that they understand that this is a resource and that they 
need to have a voice with the state point of contact that works 
with FirstNet on these issues the better.
    Mr. Ruiz. Well, it kind of sounds like a visit to my 
district would be warranted and we can get all the stakeholders 
together and start talking about how we can help build that 
relationship.
    Ms. Gomez. Yes. I am sure FirstNet is watching.
    Mr. Ruiz. Good. I yield back my time.
    Mrs. Blackburn. At 41 seconds. We are rolling. OK.
    Mr. Latta.
    Mr. Latta. I hope I don't get in trouble now.
    Madam Chair, thanks very much for having this hearing this 
morning and to our witnesses, thanks very much for being here. 
I've been very involved with the internet of things working 
group and also with rural broadband, and with the rollout 
yesterday, as was mentioned a little bit earlier from our 
friend and colleague from Iowa, that, you know, there is great 
interest out there because of what you have to have today.
    Ms. Baker, if I could ask you the first question. It's 
clear that wireless is the future and with limited spectrum 
availability NTIA has a vital role encouraging efficient use by 
federal users.
    What can NTIA do to ensure that there is sufficient 
spectrum available for both commercial and federal purposes to 
meet the needs of our increasing connected world?
    Ms. Baker. So I think NTIA plays a critical part, 
obviously, in managing the federal spectrum. I think they've 
just done a qualitative analysis, which I think is very helpful 
for us to take a look at what spectrum bands we need to focus 
on for reallocation next.
    We now have devised a system where it's a win-win. So the 
the spectrum comes to the commercial providers but yet the 
federal agencies get updated systems.
    It's a terrific tool for federal agencies to update their 
system to also become more spectrally efficient. I think with 
the help of this committee we can identify the next bands so 
that we can have more commercial spectrum and it can move this 
process.
    The FCC did a broadband plan but that was a while ago. So I 
think it's time to take a look and see what we need to do for 
the future and to build the spectrum pipeline.
    Mr. Latta. Thank you.
    Ms. Gomez, you spoke about overlapping jurisdiction in the 
federal agencies, specifically how it relates to the internet 
of things.
    As I am sure you are aware, NTIA has already taken an 
active role in the security of IoT by holding multi-
stakeholders process meetings and recently releasing a green 
paper discussing the possibility of a national IoT strategy.
    Do you believe that NTIA could be doing more to address 
securing IoT as well as other policies that touch these 
connected devices such as spectrum policy and privacy concerns?
    Ms. Gomez. I think it's a very important role for NTIA to 
address these issues. The multi-stakeholder process in which it 
has been engaging is a very good process for addressing these 
issues that change so quickly in our technical system.
    So yes, I do think NTIA could be doing more. I will say 
they are very under resourced in this. So what they are doing 
right now is what they can do at their current capacity.
    If they could get some more capacity, absolutely. There are 
lots of areas that they identified in the IoT green paper that 
you mentioned in which additional multi-stakeholder processes 
would be able to develop policies to address these challenging 
issues that are probably better done via this consensus process 
than via regulations that become enshrined for long periods of 
time.
     Mr. Latta. Let me follow up.
    In addition, would it be harmful to the development of the 
IoT to have multiple agencies asserting jurisdiction and with 
that should it be more coordination?
    Ms. Gomez. Multiple agencies have jurisdiction because of 
the nature of the IoT. The IoT now touches the Department of 
Transportation, the Federal Aviation Administration, the Food 
and Drug Administration, the Health and Human Services, because 
it touches so much of our society today.
    But, yes, you are correct--we need more coordination to 
make sure that we are not having one segment be the tail that 
wags the dog of the entire IoT.
    Mr. Latta. Thank you.
    Ms. Baker, if I could ask, with my remaining time here, 
much of federal infrastructure is governed by agencies other 
than NTIA. How do you think NTIA could better work with 
agencies to accelerate and expand access to necessary inputs 
like leases of federal buildings or federal right of ways?
    Ms. Baker. So a great amount of land, as we know, is owned 
by the federal government and that is something that NTIA can 
absolutely help in citing federal government lands and 
expedite.
    At this point, it takes an average of 18 months to site a 
tower. In the speed of which we need to roll out 5G, there is a 
global race. America has won the race in 4G. We are the world's 
leader in wireless.
    For 5G, Japan, Korea--they are right on our tails and I 
think for us to win the 5G race, which is important for every 
aspect of our life and economy, we need to make sure that we 
can roll it out fast.
    NTIA can help in streamlining federal lands, siting on 
federal lands. They can also help in best practices and figure 
out--Ohio just passed a bill. I think at every level of 
government we need to pitch in to see if we can roll these 
networks out as fast as we can.
    Mr. Latta. Well, thank you very much and, Madam Chair, with 
4 seconds left I yield back.
    Mrs. Blackburn. He made it in under the wire. All right.
    Ms. Dingell, 5 minutes.
    Ms. Dingell. Thank you, Madam Chairwoman.
    First, I want to thank all of the witnesses for your public 
service. People don't thank people enough for putting 
themselves out there.
    NTIA has a critical mission that's going to be even more 
important in the coming years as technological advances promise 
to change the way we live our lives.
    Nowhere is that more evident than in my home state of 
Michigan where the development of connected and automated 
vehicles promises to transform the auto industry into the 
mobility industry.
    And while we all agree that we should be doing more to use 
spectrum more efficiently, we also have an obligation to ensure 
we allow connected and automated vehicles to be developed in a 
responsible manner. Over 35,000 people die on our roadways each 
year and this technology has the potential to save lives, plain 
and simple.
    NTIA has played a critical role here through its support 
for vehicle to vehicle and vehicle to infrastructure technology 
known as dedicated short-range communications, or DSRC. There 
are more initials in this.
    I'd like to thank NTIA for collaborating with the FCC and 
the DRT with really important work on establishing and 
executing the test plan to find the best possible sharing 
solution for the 5.9 GHz band of spectrum.
    I hope this continues to move forward and we keep finding 
common ground. As you know, the auto industry is near and dear 
to my heart, in case anybody missed that, and NHTSA has stated 
that DSRC has the potential to eliminate or mitigate the 
severity of up to 80 percent of nonimpaired crashes. But there 
are other ways NTIA could help enable the deployment of these 
technologies.
    As you all know, the president and many members of Congress 
have said it's a priority to pass an infrastructure bill maybe 
has high as a trillion dollars. And I would agree this is a 
good idea if we do it right.
    One thing that must be included is dedication to developing 
the vehicle to infrastructure technologies. We should be giving 
moneys to the states to help them build these systems up and 
giving them technical expertise as well.
    So my question is for all three of you. Given NTIA's 
successful history administering the Broadband Technology 
Opportunity Program, do you believe the agency would have the 
technical expertise and experience to effectively manage a 
grant program to help states and localities adopt the V2Y 
technologies and should this be something that Congress 
considers either in a comprehensive transportation bill or 
legislation reauthorizing NTIA?
    Mr. Kneuer. I think absolutely NTIA has that ability and 
there have been, you know, examples in the past. We worked very 
closely with the Transportation Department to authorize 
something as simple as EZ Pass, a single frequency allocation 
that would cover the entire world or the entire country and the 
entire highway system that resulted in probably trillions of 
hours of saved time with productivity gains across the economy 
by something seeming so small.
    You magnify that with the ability to essentially make it 
highly unlikely to die in a car crash on the nation's highways.
    It's not just the technical coordination but there is also 
a leadership function of being able to articulate the benefits 
of this, that there are huge benefits to the economy and to the 
nation by doing these things.
    So I think NTIA is sort of well situated in its dual role 
both in the spectrum side and as a communicator of a unified 
national policy.
    Ms. Baker. I think you're going to find agreement here that 
NTIA has effectively handled every single grant program that 
this committee has given it and you have given NTIA a lot of 
grant programs.
    The staff is amazing. They have developed expertises in 
places that I think they didn't think their core mission was to 
begin with. They have very effectively done a terrific job.
    It's a fair question for this committee to ask whether they 
want NTIA to continue in grant programs and I think that that's 
a conversation that is worth having.
    Ms. Gomez. I agree it's a very nimble staff that 
understands the importance of having a strong oversight 
mechanism and of working closely with other agencies like the 
Department of Transportation as well as with state and 
localities and tribes and making sure that the grant dollars 
are stretched to the furthest possible.
    Ms. Dingell. Thank you. I don't have enough time so I'll 
yield back my 20 seconds, Madam Chairwoman.
    Mrs. Blackburn. We are on a roll.
    Mr. Guthrie, see if you can continue it, for five minutes.
    Mr. Guthrie. Thank you. I'll definitely stay within the 5 
minutes. I appreciate that.
    Mr. Kneuer, thanks to everybody for testifying here today 
but I want to start with a question regarding top level 
domains.
    In 2013, the Obama administration sided with foreign 
governments and abstained from a vote at ICANN that led to the 
rejection of Amazon's application for the dot Amazon top-level 
domain, acting directly against the interests of a major 
American company which happens to have facilities in my 
district.
    Just made a major announcement that they are going to be 
locating a new part of their business at Cincinnati Airport, 
which happens to be in Kentucky across the river from Ohio, and 
a lot of people are constituents of theirs as well.
    Do you believe it would be appropriate for the Trump 
administration to take specific steps at ICANN to assist Amazon 
in its ongoing effort to resolve this matter and right the 
wrong?
    Mr. Kneuer. Absolutely. with the conclusion of the 
transition of the IANA contracts, without speaking to the 
substantive decisions of the Obama administration, the United 
States government can take counterintuitively, perhaps, a more 
proactive role in favor of domestic companies.
    I think there was at some point, when the U.S. government 
had its oversight or its exclusive contractual relationship 
with ICANN there was some hesitancy to be perceived as abusing 
that authority or overplaying that role.
    With the IANA functions being fully enshrined in the 
private sector, there are all sorts of examples where it is 
appropriate and wholesome for the U.S. government to 
collaborate with U.S. companies in front of myriad private and 
governmental bodies.
    So I think that's exactly the kind of role that you would 
expect to see the Commerce Department and NTIA in particular 
playing in this new environment with the full privatization of 
IANA.
    Mr. Guthrie. How strong do you believe the U.S. position 
would be in matters like this when advocating before the 
Governmental Advisory Committee?
    Mr. Kneuer. I think the comparative advantage the U.S. 
government has in the Government Advisory Committee is our 
expertise in the subject. All right. We stood up ICANN. We 
probably have the most dedicated and competent staff to work 
with the Government Advisory Committee.
    So while we are a nation of equals, our historic role and 
our expertise, I think, gives us a comparative advantage.
    Mr. Guthrie. OK. Thank you.
    And Ms. Baker, one of the things in your testimony focuses 
on ways to empower NTIA, especially as the agency has become 
more important in the spectrum debates.
    I'll leave it open ended if you'd like to expand on some of 
the points you made and describe what more can be done to 
empower NTIA on spectrum issues.
    But one idea that has been raised with me would have NTIA 
regularly collecting more information about how agencies are 
actually using their spectrum rather than conducting band-
specific studies.
    So in addition to other ideas you may suggest, is it worth 
looking at giving NTIA a stronger coordinating role not just in 
initial frequency assignments but also in monitoring how 
federal spectrum is being used?
    Ms. Baker. Thank you for your question, and I think that 
that is a good idea. I think in my testimony I call it 
transparency and I think that it would help both to have 
federal government agencies be more transparent about what 
their use is of the spectrum as well as what NTIA might be 
looking forward to in relocation in the future and I think that 
would probably help this committee in its oversight abilities 
as well.
    I also would compliment you on your federal incentives bill 
because I think that also is a very good step.
    Mr. Guthrie. Well, thank you. Do you think the NTIA has 
sufficient stature to tell federal users that they need to be 
more efficient with allocations? Is there a problem with 
regulatory by larger and possibly more influential federal 
departments such as DoD, Homeland Security, FAA?
    Ms. Baker. I think NTIA punches above its weight in 
everything they do and I think that they do a terrific job in 
coordinating federal agencies.
    I do think raising NTIA's profile with the title of 
undersecretary would help. It would make them equal to their 
sister agency, NIST, and I think it reports directly to the 
commerce secretary. So I think that that is a natural. In this 
town, titles seem to matter and that seems like that might be a 
good addition to their----
    Mr. Guthrie. OK. Would the other two of you like--any ways 
to empower NTIA?
    Mr. Kneuer. There is the coordination with OMB is critical. 
So NTIA can use its expertise to gather information from other 
departments and agents. But Under Secretary or not, Under 
Secretary of commerce calls the Under Secretary of Defense, 
it's going to be a different story. The director of OMB calls 
and says, look, you've got a new requirement--if you want 
capital to spend on these things it's a different kind of 
conversation.
    Mr. Guthrie. I only have about 6 seconds. I am not going to 
run over because it appears that's the flow. So a couple of 
seconds? Oh, well, I'll catch you up later. Sorry, I am out of 
time. I yield back one second.
    Mrs. Blackburn. Yield back, and we can submit for the 
record. How is that? Because we do have a couple of things that 
are coming in.
    Ms. Clarke, you're recognized for 5 minutes.
    Ms. Clarke. Thank you, Madam Chair, and I thank the ranking 
member. I thank our witnesses today.
    Spectrum sharing in urban environments may pose particular 
challenges since population density and user demand for 
wireless services is very high.
    In the previous administration, NTIA and the FCC started 
work towards a model city program that would establish a pilot 
program in a major city or cities to serve as a test bed to 
evaluate and demonstrate spectrum-sharing technology for urban 
environments.
    Additionally, FCC Chairman Pai recently announced the 
formation of the broadband deployment an advisory committee 
that would provide advice and recommendations to the FCC on how 
municipalities can deploy high-speed broadband nationwide to 
close the digital divide.
    So my question is do you support the model city initiative 
and what are your thoughts on NTIA--what would you be doing to 
promote spectrum sharing in cities? And it's for the panel.
    Mr. Kneuer. I think there is a great benefit of those sort 
of model roll-outs. We conducted or we developed a spectrum 
initiative for the 21st century when Meredith and I were 
working together.
    And one of its proposals was a test bed where you could 
take potentially a block of federal spectrum that's under 
consideration for reallocation and a block of perhaps 
underutilized commercial spectrum and figure out what are the 
best ways to share and how they can be best deployed.
    The challenge in urban environments is the propagation 
characteristics and it's much more difficult to find low-band 
spectrum that you can do those sorts of things that would be of 
most benefit to an urban environment. But some of those 
propagation characteristics have made some spectrum lie fallow.
    And so I definitely think there are opportunities to 
combine those two to explore in the real world and develop the 
data that comes from that. So I think it's a fine idea.
    Ms. Baker. So a couple different things. Sharing, I think, 
is important. I think it's the future. But it has to work for 
all. It has to work for everyone.
    I think these questions are less policy questions than they 
actually are technical questions and I think that goes back to 
my plea for the importance of ITS and the labs in Boulder.
    The FCC is rolling out one test program now in 3.5. It's 
still to be seen if that's going to work or not. We are all in. 
We are trying it.
    We are going to see if it does work. I think in the future, 
whether it's licensed spectrum, unlicensed spectrum, shared 
spectrum, we are going to need it all and I think model cities 
are terrific. A lot of our companies have focused on model 
cities and I think when a city sees that they are saving $160 
billion in energy costs by being a smart city then it does 
catch your eye and everybody wants to be one.
    So I think there is a cost to the build out but the savings 
is so exponentially great for smart city that I think the more 
we can illustrate the more rapidly they will deploy.
    Ms. Gomez. I can't say much more than that. I agree, smart 
cities are so important for our future in 5G as well. So 
anything we can do to support that is a good thing.
    Ms. Clarke. Very well.
    The next question is for you, Ms. Gomez. First, I want to 
say that NTIA is a very important government agency vital to 
growing our innovative digital economy.
    With the recent cyberattacks that have occurred over the 
past couple of months, a particular spotlight has been placed 
on creating secure cybersecurity policies.
    In 2015, NTIA began its cybersecurity multi-stakeholder 
process. What are your thoughts on this approach and how will 
it enhance NTIA's policy recommendations?
    Ms. Gomez. I'm a big believer in the multi-stakeholder 
processes. I think that they can be much more nimble and 
flexible than actual regulations and they pull in all of the 
stakeholders, not just whatever stakeholder a particular 
individual agency has jurisdiction over.
    So it's important to have these discussions, to have as 
many stakeholders as possible including government, civil 
society, public interest groups, industry, everybody together 
to come to consensus to try to address these issues as they 
change on almost a daily basis. So I would be a big supporter 
of what they are doing.
    Ms. Clarke. Very well, and I won't break the trend. I go 
back, Madam Chair.
    Mrs. Blackburn. We are on a roll.
    Mr. Olson.
    Mr. Olson. I thank the chair for the time. On behalf of all 
Texans, especially one of our witnesses from Houston, Texas, 
thank you for the opening comments, the strong statements about 
the best Super Bowl ever. Super Bowl LI, Falcons versus the 
Patriots, NRG Stadium, Houston, Texas, kickoff 5:30 p.m. 
Sunday, February 5th.
    Well, to our witnesses a special howdy to our Texan, Ms. 
Baker. Ms. Baker, in our home state bigger is better. Your 
testimony spent a great time talking about the deployment of 5G 
over moving up from 4G.
    In Texas, bigger is better. 5G is bigger. And Texans are 
excited about the flood of new services they will have with 5G 
deployment.
    You mentioned medicine, transportation. My question is, 
where do we stand right now with deployment of 5G in the 
spectrum. When do you think that will be truly available?
    Ms. Baker. Great question, and we are excited for the Super 
Bowl in our house, too.
    I think when you look at the Super Bowl, for instance, you 
look at the capacity of how many people are going to want to 
send videos and tweet and take pictures and send them.
    You see the importance of the capacity. It's grown 
exponentially and we are expected to see it grow six times by 
2020.
    So the data is just increasing so our network's capacity 
has to increase. I was in Dallas not too long ago and we have 
some trials going on there. I think there are about 117 trials 
of 5G across the country at this point.
    When I first started this job two and a half years ago we 
were not necessarily thinking that we needed 5G. The industry 
has changed that quickly to now we are seeing the rollout of 
field trials this year and I expect that we will see commercial 
roll-out of 5G by 2020.
    Mr. Olson. Great. Thank you.
    You talked about America leading development of 4G. We led 
the world in 4G. It appears we are losing some advantages with 
5G.
    In today's global economy, as you know, speed kills. You 
mentioned we are behind South Korea and Japan. I traveled there 
with Chairman Upton and Chairman Walden, Mr. Shimkus, Mr. 
Griffith, we saw it firsthand. We are falling behind those two 
countries. Who else is ahead of us globally?
    Ms. Baker. I'm hopeful we're not too far behind at this 
point and we are catching up.
    Mr. Olson. OK. Great.
    Ms. Baker. Our companies are really working hard and they 
are investing the money and they are working hard to overtake 
that because of the importance of--the reason the app community 
is in the United States is because we lead the world in 
wireless. The reason that 98 percent of operating systems are 
from the United States is because we rolled our networks first.
    So I think we understand how important it is and we are 
working hard to that end.
    Mr. Olson. OK. Thanks.
    Who's behind? Who should be considered as behind us but 
catching up quickly maybe we should be worried about in the 
rear view mirror?
    Ms. Baker. I think we are doing well. Well, our LTE 
networks are covering 99.7 percent of America. So we have a 
good head start to build on.
    Mr. Olson. OK. One further question--as former NTIA 
administrators speaking only for yourselves, not for the 
organization, is NTIA being helpful with the 5G rollout and 
where can we help them with deficiencies with the 
reauthorization of the agencies? One minute and 20 seconds. Ms. 
Gomez, you're up.
    Ms. Gomez. 5G rollout, as Meredith has mentioned, is a huge 
undertaking. I think continued support of their interagency 
processes to get relief from the barriers to infrastructure 
deployment is the most important thing.
    Mr. Olson. OK. Ms. Baker.
    Ms. Baker. More spectrum and streamlined siting.
    Mr. Olson. Mr. Kneuer.
    Mr. Kneuer. Because of our lead in 4G, we have the highest 
economic incentives to roll out 5G. The barriers are going to 
be in policy and so making sure that we have the spectrum 
available, that everybody's pulling in that direction, the 
industry's going to take care of it and we will be first in 
that.
    Mr. Olson. Well, thank you. I yield back my time with 45 
seconds.
    Mrs. Blackburn. And he is under the wire.
    Mr. Olson. I yield back.
    Mrs. Blackburn. And I will remind the gentleman from Texas 
that his Houston team left and came to Tennessee and became 
Tennessee Titans.
    And with that, Mr. McNerney, all yours for 5 minutes.
    Mr. McNerney. Well, first, I want to congratulate the 
chairwoman on assuming the chair. I look forward to working 
with you and the ranking member as well.
    My first question goes to Ms. Gomez. The rapid growth of 
the IoT devices creates immense opportunities but also raises 
serious concerns about issues like privacy and data security.
    Multiple federal agencies have recently been involved in 
examining the challenges raised by these questions. Can you 
explain the NTIA's role and why that might be important?
    Ms. Gomez. So the NTIA is, of course, the principal policy 
advisor for administration policy on telecommunications and 
information issues, which includes the issues that you raised--
privacy, cybersecurity, any other issues raised by the internet 
of things.
    In that role it serves a convening function in two ways. 
One, it coordinates interagency activities that lead to 
whatever policies are implemented for the IoT and hopefully the 
removal of barriers to deployment so that we can get to the 
rollout of 5G in a timely fashion.
    And then, secondly, it's a multi-stakeholder process in 
which it convenes stakeholders from all walks of life in order 
to develop consensus policies to address issues like cyber 
security and privacy issues writ large, both for the IoT and 
for others.
    Mr. McNerney. Thank you.
    I am going to follow up on a question that the ranking 
member asked Ms. Baker. Industry groups like the CTIA have been 
on the Hill, sent a letter around asking Congress to use the 
Congressional Review Act to overturn existing rules. This 
letter makes no mention of the fact that the CRA could prevent 
the FCC for making substantially similar rules in the future.
    Now, are you aware that the CRA could prevent the FCC from 
making future rules regarding data breach notification or 
working with industry to create new privacy rules in the 
future?
    Ms. Baker. So we are absolutely 100 percent committed to 
consumers' privacy and as such we distributed privacy 
principles on Friday.
    I think what we are looking for is a uniform and common set 
of rules that apply to the entire ecosystem so that everyone is 
competing with the same rules.
    Mr. McNerney. But are you aware that the CRA could prevent 
the FCC from making new rules regarding privacy and data breach 
notification, for example?
    Ms. Baker. We're looking for any tool that will allow 
privacy rules to be the same for the entire ecosystem.
    Mr. McNerney. Ms. Gomez, it's been 2 \1/2\ years since the 
National Broadband map was updated. Although the NTIA is no 
longer responsible for keeping the map up to date, individuals, 
businesses and state and local governments still rely on this 
map. Is having an accurate map important for identifying 
geographical areas that are underserved or unserved by 
broadband providers?
    Ms. Gomez. Yes. As you know, NTIA is no longer updating the 
map. That function has been moved over. But it has not been 
updated since 2015 and that was using 2014 data.
    I do believe it's important to have data-driven decisions 
and so having an updated map would be a good thing, just not 
the current state.
    Mr. McNerney. How fast does that map change?
    Ms. Gomez. The map changes constantly. We have deployment 
change every day. As Meredith mentioned, there is a lot of 
capital expenditures every year, every day to get the 
infrastructure deployed.
    Mr. McNerney. So, in terms of the digital divide, having 
this map up to date is important and should be funded.
    Ms. Gomez. The map was an important tool and it would be 
good to fund the map in the future.
    The FCC also has the ability to do it. It just doesn't have 
the funding.
    Mr. McNerney. So is the NTIA the right organization to do 
that?
    Ms. Gomez. If the NTIA gets its grant program again that 
would be the right way to do it or it would be a good way to do 
it, I should say. The way that the map was developed was a 
bottoms-up process in which the states provided the information 
to NTIA and NTIA worked with the FCC to create the map.
    One way or another, you need to have that input and you 
need to have the funding to be able to have an accurate map 
because if it's not accurate then it's not useful.
    Mr. McNerney. I'm just going to ask a question, and you 
won't have time to answer it. Mr. Kneuer, you indicated that 
the NTIA is the most effective when it's the working 
intersection between business and private and government 
sectors and also can be effective in advising the Office of 
Management of Budget.
    I'd like you to elaborate on that in writing, since I am 
running out of time. Thank you.
    Mrs. Blackburn. And he made it before he went into 
overtime.
    Mr. Johnson, for 5 minutes.
    Mr. Johnson. Thank you, Madam Chairman, and I to want to 
congratulate you on your chairmanship and looking forward to 
this session, working with you.
    I want to thank our panel for being here today, too. Really 
appreciate that.
    I represent a district that struggles with the issue of the 
digital divide, particularly when it comes to talking about 
broadband access. I've got high school students in my district 
that have to go a public library or to a neighboring town in 
order to do their school research or to check out the internet, 
to do things that most of us, you know, just take for granted.
    So broadband access is a very, very important issue for the 
721,000 people that I represent.
    Ms. Gomez, one important component of effectively 
allocating resources for broadband deployment projects is 
accurate comprehensive data regarding the current level of 
broadband service across the country ideally at a granular 
level.
    How can NTIA, in your opinion, be helpful in developing 
this information?
    Ms. Gomez. There are a couple of ways that NTIA has been 
involved in this type of information. The first is with this 
tool that we were talking about before, which is where NTIA 
administered grants to get the data necessary to populate the 
map that the FCC actually put together. They worked on that 
jointly.
    It's not something that's currently funded by if it was 
that would be a very valuable way to get more accurate data and 
give the localities of tool that is visual and that provides 
them good planning tools.
    The second way is also with the work that NTIA does in 
working with the Census to get accurate adaption information. 
That is a very useful way to understand where we might have our 
deployment but not necessarily the take-up. So understanding 
from a demographic perspective who is using the internet, how 
they are using the internet, also helps with this type of 
planning to support localities that need to get broadband 
infrastructure and adoption.
    Mr. Johnson. OK. Continuing with you--I appreciate that 
answer--you were at NTIA during the broadband technology 
opportunities program when NTIA administered more than $4 
billion in grants to promote broadband employment and adoption.
    What are some of the lessons that we can draw from that 
program as we move forward and what role is appropriate for 
NTIA to play in future broadband deployment efforts?
    Ms. Gomez. We learned a few things from the BTOP program. 
As I mentioned before, we want to make sure that the funding is 
sustainable and continues.
    The importance of providing the technical assistance to the 
grantees and to the communities to make the full usage of the 
grants and to make sure that the grants not just benefitting a 
specific deployment but also had ripple effects throughout the 
communities in both the adoption as well as the access for 
other providers to be able to link to whatever infrastructure 
was being deployed.
    The importance of a strong both team to both select the 
grantees as well as to manage and oversee them. It really 
requires a lot of resources and a lot of attention to make sure 
that the grant dollars are well used and used in a timely 
fashion.
    So there is still a lot of that expertise within NTIA 
because that staff that became very expert at managing the 
grants have now pivoted to the technical assistance they are 
providing through the Broadband USA program.
    So absolutely NTIA could continue to provide the grant 
management that you might seek. Understanding that whatever 
enabling statute is very important in setting parameters of the 
program.
    A lot of the criticisms of the program came from concerns 
about the fact that, for example, the grants went to fund both 
unserved and underserved areas.
    The definition of rural was very important to managing the 
grant program. So attention to the statutory language that NTIA 
would use to implement the programs is also very important.
    Mr. Johnson. OK. Well, thank you.
    Madam Chair, I yield back just under the wire.
    Mrs. Blackburn. I tell you, we are rolling.
    Let's see. Mr. Pallone, you're recognized 5 minutes.
    Mr. Pallone. Thank you. Thank you, Madam Chairman.
    And, again, I know this is your first hearing so I want to 
congratulate you and Mr. Doyle for being the chairman and the 
ranking member.
    Ms. Gomez, I've reviewed NTIA's most recent budget request 
asking for only $50 million total, and given the recent growth 
in the communication networks that the agencies oversees, that 
amount seems reasonable.
    NTIA has also provided strong justification for their 
request. So can you just tell us briefly what an authorization 
of $50 million would allow the agency to do for the American 
people?
    Ms. Gomez. From my experience, NTIA is a very resource-
constrained agency. It is surprisingly small, considering the 
breadth of its portfolio. And with the evolution of the digital 
economy and the new and innovative uses, its role is only going 
to get bigger.
    So new funding can be used in a variety of ways. Spectrum, 
spectrum, spectrum. Our innovation is very much centered on 
wireless and we need to have both the staff that can manage day 
to day the federal agency's use of spectrum but also continue 
to plan for the future, continue to plan for the pipeline and 
continue to work within the interagency process to identify 
more spectrum for wireless broadband uses.
    On the internet policy front, we need to continue our 
strong voice at the governmental advisory committee before 
ICANN. That is going to continue to be important for 
international and domestic internet presence but also 
addressing cyber security and privacy issues is going to be 
important in the multi-stakeholder process. Particularly with 
cyber security, we need staff that has security clearances that 
understands the issues so that they can convene and shepherd 
these multi-stakeholder processes to develop these policies.
    Both with the multi-stakeholder process as well as 
intergovernmentally to work with the other agencies as they 
develop their own security policies.
    And on research, it's important for supporting the spectrum 
initiatives as well as other agencies and also industry. 
Industry relies on the laboratory for some of its measurement 
and testing.
    And so bolstering their ability is going to be very 
important. I think the National Foundation found that they are 
actually seriously underfunded. So that would be very helpful 
in that regard.
    Mr. Pallone. Thank you.
    Ms. Gomez mentioned the privacy issues. So let me ask Ms. 
Baker, NTIA found last year that around half of American adults 
limited their economic activity online because they were 
worried about their privacy and data security.
    A Pew study also found that a full 91 percent of adults 
believe they have lost control of how personal information is 
collected and used by companies. And that's why I have been 
disappointed in CTIA's recent attacks on consumer privacy 
protections. I am hopeful we can still find some common ground 
though. So I think we may agree that the Federal Trade 
Commission should be a strong protector of consumer privacy.
    Let me ask you, would CTIA support democratic efforts to 
strengthen the FTC's ability to protect consumers by lifting 
the common carrier exemption, given the FTC Rulemaking 
authority, giving the FTC more privacy staff. Would you comment 
on that?
    Ms. Baker. First, I think that CTIA believes strongly in 
privacy and in consumers' right to privacy and data security. 
It is a priority for all of our carriers and companies.
    I think that we believe that consumers are served better 
when their privacy protections are based on the type of 
information as opposed to the company that holds it.
    And for that reason, we would like to see the FTC's 
jurisdiction on privacy be consistent across all of the 
companies. The mechanism is to how to get to that. I would have 
to get back to you on the languages too.
    But yes, the idea is to having the FTC have jurisdiction 
over the privacy of consumers' data. All companies would be 
consistent with what we believe.
    Mr. Pallone. All right. I've run out of time but I wanted 
to ask you a local question. Well, it's not really local. But 
Ms. Gomez, one of my priorities is promoting public safety 
communications and network resiliency, and I have been a strong 
supporter of FirstNet, which is housed at NTIA.
    And getting better technology in the hands of first 
responders is really important. So I understand you were at 
NTIA when FirstNet was formed, and from that perspective how 
would you assess FirstNet's progress in starting up the 
nation's public safety broadband network?
    Ms. Gomez. I think FirstNet has made great progress. It is 
a huge undertaking as well and it is very close to getting the 
contract in place to be able to start the actual deployment in 
services and working with the states.
    So I, too, am a great supporter of FirstNet.
    Mr. Pallone. OK. We have run out. Thank you, Madam 
Chairwoman.
    Mrs. Blackburn. Well, actually, you went 3 seconds over but 
who's counting?
    Mr. Kinzinger, you're recognized 5 minutes.
    Mr. Kinzinger. Thank you, Madam Chair, and running a tight 
clock. That's good. That's good. I am excited. It's going to be 
a good couple years.
    Quickly, just to all witnesses, since 2010 NTIA's office of 
spectrum management has been tasked with executing a 
presidential memorandum to make available a total of 500 
megahertz of federal-nonfederal spectrum by 2020. We are 
quickly approaching the end of that 10-year window and do you 
all think there is a need for the NTIA and the FCC to jointly 
establish and carry out formal planning activities for the next 
decade through a new national spectrum plan?
    Mr. Kneuer. Yes, I think it's vital to have a pipeline to 
have to have long-range visibility as to where the next 
spectrum bands are going to come from to meet the growing needs 
that I think we have all been talking about.
    I think there is a challenge when you set numbers of 
megahertz to be freed without some more detail and concept 
about what that means.
     If the agencies are put in a position to find spectrum, 
they may find spectrum that is in the cupboard but is not very 
useful and say we have met our obligation.
    So the focus less on specific targets and more on holistic 
policies that will be deployed across the entire government 
that this is part of your job, day in day out.
    As a steward of these resources you need to account for 
them and make sure you're taking steps that they are used 
across the economy and not just held for isolated purposes. So 
I think long-range planning is very important. I think the 
spectrum pipeline bill is important. But yes, we have to keep 
looking down range.
    Ms. Baker. I think goals are important and I would 
certainly welcome this committee, asking NTIA and the FCC to 
have set another goal for 10 years. I think that the focus of 
this committee is very helpful.
    You have brought the AWS-3 auction. You have brought the 
600 megahertz auction to bear. And I think that the guidance 
from this committee is very important and we would love to see 
that.
    Mr. Kinzinger. Ms. Gomez, do you have anything to add?
    Ms. Gomez. Sorry. The only thing I would add is I agree, 
planning is I agree planning is very important. Goals are very 
important. I also want to make sure that NTIA continues to 
focus on what it's doing today because it still has a lot of 
work to do.
    So whatever resources they need it would be good to bolster 
those resources so they can in fact engage in thoughtful 
planning for the future.
    Mr. Kinzinger. Mr. Kneuer and Ms. Gomez, how can the NTIA 
most effectively promote the interests of the United States in 
international discussions on internet and communications 
policies?
    Mr. Kneuer. Well, I think Mr. Shimkus asked about ITU and 
our role there. That has been the vehicle in the world radio 
conference where NTIA works with our colleagues in the State 
Department. Aggregating all of the equities of the spectrum-
dependent agencies is very heavily focused on the Defense 
Department, as you would imagine.
    So maintaining a robust role and making sure that we 
collaborate across those areas. With regards to internet 
governance and those sorts of subject matters, the multi-
stakeholder model has been very, very productive.
    It was productive in collaborating and coordinating the 
IANA functions. Some of these broader internet governance 
issues probably don't belong.
    The nontechnical issues don't belong in a technical body. 
But the model of the multi-stakeholder model to bring diverse 
coordinated interests and equities together for U.S. promotion 
in a variety of international forums, NTIA plays an important 
role in that.
    Ms. Gomez. I absolutely agree with John. NTIA's strong 
voice and role in the governmental advisory committee is very 
important, may even be more so important today to ensure that 
the internet remains a free and open resource and that other 
bodies don't take over trying to manage the architecture that 
so far has been so successful and open.
    Mr. Kinzinger. And let me just ask you very briefly, Ms. 
Gomez, one of the NTIA administrator's important roles is to 
represent the administration and the United States and the 
multi-stakeholder decision process, particularly when it comes 
to settings like ICANN and the internet governance issues. Do 
you see any obstacles to doing this?
    Ms. Gomez. I would agree with what Meredith said earlier, 
which is that this is--or maybe it was John who said it. Sorry.
    This is probably the best staff, the most expert staff and 
the strongest and most strategic staff that we have to 
participate in this body.
    So it's important to continue to support that resource and 
support their needs as we move forward with a U.S. presence and 
voice in these meetings and associations.
    Mr. Kinzinger. OK. Thanks.
    And I yield back now.
    Mrs. Blackburn. With military precision, yields back.
    Mr. Butterfield, 5 minutes.
    Mr. Butterfield. Thank you, Chairman Blackburn and Ranking 
Member Doyle. Thank you for holding today's hearing on NTIA 
reauthorization.
    There is no doubt that NTIA will play a critical role as 
this administration contemplates its goals related to our 
nation's telecommunications policy.
    By any definition, NTIA is critical in the communication 
space. NTIA's past and ongoing work with FirstNet--and I 
appreciate the ranking member's comments a few moments ago--
work with FirstNet as well as their work with the National 
Highway Safety Administration to develop and implement next 
generation 911 services is to be commended.
    NTIA also plays a critical role in safeguarding our nation 
from cyber threats. There is no higher mission from members of 
Congress than doing all that we can to protect our constituents 
from potential threats.
    At this point, it is underscored by the intervention of 
Russia in last year's election and their state-sponsored 
hacking of the Democratic National Committee.
    Those incidents highlight that cyberattacks that threaten 
our country can be carried out by highly funded and even state-
sponsored actors.
    In response to that type of attack on our democracy, we 
must take steps to investigate all potential cyber security 
threats including those posed by state sponsors like Russia, 
and I am confident that NTIA will do just that.
    Also important to my district and my constituents is 
identifying ways to increase broadband adoption and reduce 
barriers to broadband deployment.
    In this regard, I understand that NTIA continues to engage 
in several initiatives aimed to increase adoption. For example, 
NTIA has engaged local communities through the Broadband USA 
initiative to provide technical assistance and guidance on how 
best to increase access to affordable broadband.
    It has also been a key participant of the broadband 
opportunity council which was created to ensure federal 
agencies take specific steps to encourage broadband investment 
and remove regulatory barriers.
    Just one or two questions, Ms. Gomez. Do you think that the 
new administration should continue these activities and why?
    Ms. Gomez. Absolutely. All the activities that you 
mentioned are important and especially to the continued 
innovation and deployment of these new and important 
technologies.
    So I would say NTIA is front and center in a lot of them 
and these are initiatives that should continue.
    Mr. Butterfield. Aside from the increase in the budget from 
40 to 50, are there other things that we can do legislatively 
to enhance the work of NTIA?
    Ms. Gomez. I do think that there are ways that you can 
empower and promote NTIA as it continues a lot of these 
interagency discussions.
    As we have discussed before, it's a small agency with a 
mandate to push and prod its fellow agencies throughout the 
federal government to lead to, for example, removing barriers 
to infrastructure deployment.
    That requires dedication and focus from other agencies that 
NTIA sometimes doesn't have the muscle to force other agencies 
to make a priority as part of their mission.
    So to the extent Congress can help with bolstering NTIA's 
ability to successfully get the other agencies to cooperate, 
that's always very helpful.
    Mr. Butterfield. Thank you very much.
    Madam Chairman, I yield back.
    Mrs. Blackburn. And gentleman is competing for first prize 
in yield back.
    Ms.----
    Mr. Butterfield. I was told that you would be in the chair, 
Ms. Blackburn. Your real title in the time is when I was a 
judge in the courtroom.
    Mrs. Blackburn. Absolutely.
    Mr. Butterfield. I understand the importance.
    Mrs. Blackburn. Yes, sir. Ms. Walters, five minutes.
    Ms. Walters. There is a lot of pressure.
    First of all, there's a lot of pressure. First of all, I'd 
like to thank the chair for holding this hearing and for the 
witnesses being here today.
    Cybersecurity continues to be a growing threat and I'd like 
to get your thoughts on what role the government should play in 
this area as this becomes a bigger concern to all stakeholders.
    With that, Ms. Baker, with regard to cyber security, there 
seems to be several agencies that are staking a claim of 
leadership--FCC, DoD, DHS, NTIA.
    With respect to the commercial sector, do you have opinions 
as to which agency should run point?
    Ms. Baker. I'm glad you asked. It's a great question.
    We do have an opinion here. Cybersecurity is critical. 
These networks are going to change everyone's life every job, 
our economy. But they have to be safe.
    And so cyber security is the most important thing that we 
work on every day. I feel strongly that this needs to take 
place within the administration, not an independent agency.
    So I think there's a coordination role that needs to happen 
between DHS, NTIA, NIST. I think we probably prefer DHS to be 
the lead with coordination from the others. But I do think one 
way or another it needs to take place in the administration, 
not in the FCC. Thank you.
    Ms. Walters. Ms. Gomez, one of the primary challenges we 
face in securing our nation's communication infrastructure and 
networks from cyber threats is the rapidly evolving nature of 
these threats.
    Does NTIA have the ability to adapt quickly enough to 
adjust to new and emerging threats in its efforts to drive 
interagency cybersecurity practices?
    Ms. Gomez. In keeping with your prior question, it is 
important that we have some kind of a balance of the economic 
and national security concerns in cybersecurity practices.
    The point that you're making is it is a challenge to keep 
up with changes in technology and that is why you need an 
agency that can convene processes that are able to be flexible 
enough to be able to address those changes.
    NTIA could use more expert staff. They have very good 
expert staff. But as we look forward to continuing and 
increasing challenges and new and novel issues in these areas, 
it would be helpful to be able to bolster them.
    As I mentioned before, they also need the security 
clearances, which is part of the reason why they need 
additional budget to be able to get those clearances for their 
staff.
    Ms. Walters. And Ms. Gomez, you have the most recent tenure 
at NTIA. And how would you describe the relationship between 
NTIA and DHS and in this cybersecurity framework? And do you 
think NTIA and the FCC have sufficient authority and ability to 
represent the interest the interests of the commercial sector 
in this conversation?
    Ms. Gomez. NTIA and DHS has had a very good relationship 
both on cybersecurity as well as on public safety. There are 
established processes in place. There are interagency groups in 
which they participate. So that is very helpful.
    I think having specific authority is always helpful to 
bolster an agency's jurisdiction and I think NTIA does have a 
very good jurisdiction writ large but it always is helpful to 
give them that specific jurisdictional authority in 
reauthorizing legislation.
    Ms. Walters. And Ms. Baker and Mr. Kneuer, do you have 
anything to add, either one of you?
    Mr. Kneuer. I think there is value in NTIA's role with its 
interface with the private industry. There is the response part 
of dealing with the cyber initiative which is probably not 
going to be NTIA's role.
    But one of the greatest lines of defense in cyber is to 
share information on the nature of threats and the nature of 
attacks.
    Private industry sometimes is hesitant to share that kind 
of information because they are admitting to a vulnerability or 
they are exposing a vulnerability or they are concerned about 
litigation exposure.
    NTIA can play that role, taking some of the information of 
the information from the private sector, bringing that into the 
interagency and taking the best information from the 
interagency and taking the best information from the 
interagency and distributing it back into the private sector.
    Ms. Baker. I think you've covered it.
    Ms. Walters. Thank you, and I yield back the balance of my 
time.
    Mrs. Blackburn. Mr. Costello for 5 minutes.
    Mr. Costello. Thank you.
    Continuing on the cybersecurity issue, could you share your 
thoughts, Ms. Gomez, and I would open up to the other panelists 
as well, on NTIA's role in assisting FirstNet plan and its 
cybersecurity strategies.
    We spoke on the commercial side already.
    Ms. Gomez. Great. Well, cybersecurity is a very important 
component of FirstNet. Again, we need to have public safety's 
trust and confidence in the security of the nationwide public 
safety broadband network to get them to actually sign on to the 
service.
    FirstNet has its own cybersecurity staff. I would start 
with that. So to the extend NTIA is supporting FirstNet I would 
say that's probably it's biggest role.
    NTIA also participates with NIST in the public safety 
communications research program and through that program is 
able to coordinate support for FirstNet as well on 
cybersecurity issues.
    But this is fundamental to the success of the network will 
be the ability to have a very secure network.
    Ms. Baker. I would just add probably that I think FirstNet 
it has probably one of the very most important missions of any 
government agency.
    And as I just stated, I think cybersecurity is one of the 
most important jobs that we have as network providers. So I 
guess you get double importance there.
    Mr. Kneuer. I think that's right. I think there is an 
opportunity for potentially a virtuous cycle to come into 
effect as a customer. FirstNet probably has higher cyber 
requirements than a typical large enterprise company, right.
    So as they put those requirements into the provider and the 
contractor for FirstNet, those cyber requirements populate into 
the commercial networks more broadly and as those technological 
developments take place in response to FirstNet, we get this 
loop where the requirements get put in, the technology gets 
developed and it's an improving cycle.
    Mr. Costello. This could be a philosophical or a technical 
question or both.
    We are obviously dealing with a very massive network that I 
think we can all agree needs to remain agile because as you get 
new security technologies you want to make sure that you don't 
have to sort of go back in time to reengineer.
    How does NTIA remain relevant and make sure that it remains 
agile and nimble as new security technologies enter into this?
    Ms. Gomez. I think, again, this goes back to NTIA's 
convening role. It both has the external expertise and also the 
interagency expertise between NIST and DHS.
    But, more importantly, it also needs to rely on the 
stakeholders to come in and to educate it and the multi-
stakeholder processes on these new technologies and that's a 
large part of what they do.
    Mr. Kneuer. I would just build on something Meredith said 
earlier about the administration being the best place for some 
of these issues.
    I think the danger in pursuing a regulatory approach to 
cyber is that the incentives shift from network protection to 
regulatory compliance and that creates a sort of sporadic 
function that you're concerned about, that how do you stay 
relevant.
    Enshrining things in regs is the quickest way to delay 
rapid changes. So levering the coordinating function, 
leveraging and taking advantage of the incentives that both 
industry and the government have to protect themselves is the 
best way for us to keep it as something that's top of mind 
rather than always backward looking at a regulatory structure.
    Mr. Costello. The state and local implementation grant 
program--the education and outreach to a state's local 
emergency personnel is obviously extremely important. And the 
guidance--the NTIA can offer in the decision making process for 
states weighing challenges and how to opt in or opt out, can 
you sort of explain, moving forward, how NTIA should approach 
that--particularly in my state of Pennsylvania, where it's an 
extremely important issue?
    Ms. Gomez. Yes. Congress was very wise to include what we 
call planning funding, just generally, in creating this state 
and local implementation grant program because FirstNet needs 
to get the input from the bottom up, from the cities and 
communities and localities up through the state up to FirstNet, 
and that takes dedicated resources. That's what the grant 
program does.
    What NTIA does is administers that grant program and 
support FirstNet's efforts to reach out to those individuals so 
they can have a voice in the network.
    Mr. Costello. Thank you.
    Mrs. Blackburn. Gentleman yields back.
    Mr. Cramer, you're recognized 5 minutes.
    Mr. Cramer. Thank you, Madam Chair, and congratulations on 
the gavel.
    Thanks to all of our witnesses for this hearing and your 
time--time that is getting late.
    Now, I've sat here a long time and I've listened to pretty 
much everything and there have been a couple of passing 
references to smart cars or autonomous vehicles. But I am going 
to bring up a completely different topic so a completely 
different context at least for a similar topic.
    So my home state of North Dakota is home to the Northern 
Plains UAS test site, one of the six FAA-designated test sites 
designated in 2013.
    And as you likely know, remotely-piloted aircraft are 
playing an increasing role in important duties like disaster 
recovery, monitoring pipelines, precision agriculture.
    Obviously, there are the obvious military applications. And 
as a result of our test site, we have a rather unique enhanced 
use lease at the Grand Forks Air Force Base where there is a 
private sector business park at the same place on the air base, 
with the appropriate security divisions and what not.
    It's quite unique, and for military applications for 
defense contractors, which we have attracted to the park, 
spectrum is fairly easy. Of course, it's a military issue.
    But for the private sector where I think the real 
opportunity and real growth lies for testing, aircraft testing 
equipment, training pilots, research and development, there has 
been a challenge as it relates. And, in fact, there was a 
specific situation not that long ago where a company was 
testing and wanting to illustrate, demonstrate the use of their 
cameras and video. And they literally could not do it because 
of a fairly basic spectrum issue.
    All of that being said, going forward, how do you see 
spectrum allocation as it relates to UAS and how do you see it 
being resolved, improved upon? NTIA--obviously, their role in 
other agencies and what can we as Congress do to help clarify 
it? And I throw that to all of you and that will be my only 
question, Madam Chair.
    Ms. Gomez. So spectrum is going to be very important for 
unmanned aircraft in a variety of ways. First of all, the 
command and control of aircraft, particularly if you start 
looking at beyond line of sights uses.
    And there is going to be different types of needs depending 
on the type of aircraft and the operations themselves. So right 
now, you can fly using unlicensed but that's not going to be 
true for the longer range flights.
    So the spectrum is going to be very important. The FCC is 
going to be important because they are going to have the rules 
for commercial uses.
    The FAA's going to be important because they are the ones 
that are going to try to regulate to make everything safe and 
make sure that they meet requirements to make them safe. And 
NTIA is important because there is going to be interagency 
coordination.
    And so spectrum is something that the agencies are very 
focused on currently. There is internationally allocated 
spectrum for unmanned aircraft and it's specific aeronautical 
spectrum, and then there is also other spectrum that can be 
utilized that will also be very significant for the expansion 
of this industry that is moving so quickly and, as you've 
noted, the North Dakota test site is an important part of that.
    Mr. Cramer. So Ms. Gomez had beautifully described the 
complication of the issue. So as a result going forward, how 
can we help streamline? Because you articulated perfectly how 
difficult this is, especially command and control, which is 
where the real opportunity rests.
    Ms. Baker. I would highlight, many of the things that we 
have talked about today, the future of our communications 
networks, overlapped jurisdictions, and I think what we need to 
encourage is to make sure that we remain on the cutting edge of 
innovation and I think UAS is one where they are using them in 
England. We are not using them really here.
    So I think its own place where--I think with Congress' 
oversight we can make sure that we don't over regulate budding 
innovations and budding industries so that we can maintain our 
innovative edge and competitive edge against other countries 
around the world.
    Mr. Kneuer. The only thing I would add apart from the long-
term deployment of unmanned vehicles, with regards to the test 
site, there are private test sites. There are military test 
sites that are typically in very remote areas and those remote 
areas are typically not at all spectrum constrained in the real 
world but they're spectrum constrained by the issuance of those 
licenses.
    We issue licenses on national bases or wide geographic 
areas and you can turn on a spectrum analyzer and say there is 
no one here. But the authorities are held by someone else.
    Creating governance processes where there are the 
opportunity and the ability of diverse carriers to say you know 
what, I am not out there, and, here's how we can collaborate 
and here's how you can use my spectrum, how you can have 
transactional agreements in those areas, I think, clarifies or 
will get the regulatory out of the way of the technological in 
those test areas.
    Mr. Cramer. Thank you all very much, and Madam Chair, I 
yield back.
    Mrs. Blackburn. Gentleman yields back.
    Mr. Engel, we will get you in before we get called to votes 
and be able to dismiss our panel and not have to come back.
    Mr. Engel. OK. Thank you. Thank you, Madam Chair, and 
briefly, before I begin, I want to say how excited I am to be 
rejoining this subcommittee after having served on it a number 
of years ago and how much I am looking forward to working with 
you, Madam Chair, and all the members here on these important 
issues of Congress.
    Thanks to our witnesses. I wanted to focus on cybersecurity 
and particularly the role NTIA plays coordinating our national 
cybersecurity response between government and industry.
    Last year, when Russian operatives breached the Democratic 
National Committee and broke into John Podesta's emails, they 
attacked our election, the very core of our government.
    But even that attack never hit a government agency or 
government-owned computer. The DNC is a private organization 
and Mr. Podesta kept his e-mail on a Google g-mail account.
    So the Russian hacking story is at least in part a story 
about how cyber threats leave us vulnerable in these places 
where governments and the private sector meet.
    NTIA has emerged as a vital cop on that beat in its role at 
the IPTF and as a liaison between industry, Commerce 
Department, defense and intelligence communities, DHS and the 
rest of the government.
    So let me ask Ms. Gomez and Mr. Kneuer, I wonder if you 
could talk a bit about what would happen to this multi-
stakeholder approach to cybersecurity, particularly on the 
government side if there wasn't an agency to fill that role.
    Ms. Gomez. So what would happen if there wasn't an agency 
to fulfill the role of coordinating with other agencies, as we 
talked there's a lot of overlapping jurisdiction and interests 
throughout government.
    As I mentioned, I think it's very important that as we 
continue to look forward to securing the networks that we make 
sure we balance economic and national security interests 
because each agency's mission is a little bit different.
    The national security agency's interest is in protecting 
the internet. That could lead to very draconian measures that 
would not allow continued innovation.
    So an NTIA is important because they are a convener and 
they provide a balance. It's also important because it convenes 
the multi-stakeholder processes to ensure that we have methods 
of addressing a lot of these vulnerabilities and without having 
rules enshrined in regulations that would then not be flexible 
for to take into account changes in technology.
    Mr. Engel. Mr. Kneuer, do you have anything to add?
    Mr. Kneuer. I think I agree largely with all of that.
    The legal and authorization structures around structures 
around cyber touch everything. This is Title 50 authority 
Defense Department--it's Title 10 Authority under Espionage and 
you've got all of the various law enforcement authorities on 
the response side of things.
    I don't think it's ever going to be NTIA's role or whether 
it would be wise for it to be NTIA's role to be in the response 
change.
    However, it does play an important role in, as we have 
talked about earlier, sharing information that is developed 
from some of those other expert agencies that are really 
designed to respond to foreign and domestic threats.
     Its role is best suited, I think, to making the commercial 
industry aware of these threat vectors, what they can do to 
practically defend themselves. And should the attacks come, the 
response is going to be focused, I think, in other agencies.
    Mr. Engel. Thank you. Let me ask Ms. Baker.
    How valuable is the institutional expertise at NTIA and IST 
and these other industry facing agencies that work with all of 
you in cybersecurity--what would happen to our national 
cybersecurity strategy if we lost that expertise at that 
junction between industry and government?
    Ms. Baker. I think it's critical. I mean, I think expertise 
as these networks evolve is having that housed in both in the 
private sector and having that in the government so that they 
can convene the private sector I think is integral to our 
protection, going forward.
    Mr. Engel. Thank you. So let me just say, in conclusion, 
that I am convinced that one of the biggest problems we are 
facing now in confronting cyber threats is that everything is 
spread out.
    There are precious few clearinghouses where actual 
decisions are made about the best way to protect American 
interests.
    We have this opportunity here with NTIA to build on and 
expand our capability at this intersection of industry and 
government.
    I believe it is very important to overcoming part of this 
problem. So I want to urge my colleagues and chairwoman to keep 
that in mind while this subcommittee moves forward with this 
reauthorization process.
    Thank you, Madam Chair, and I yield back the balance of my 
time.
    Mrs. Blackburn. The gentleman yields back and there are no 
further members waiting to ask questions. So we will thank our 
witnesses.
    We are so pleased to have had you with us today. I remind 
members you've got 5 days to submit opening statements. You 
have 10 days to submit further questions to our witnesses.
    We would ask for written responses within 10 days, and 
there being no further business to come before the committee 
today, it is adjourned.
    [Whereupon, the hearing concluded at 1:01 p.m.]
    [Material submitted for inclusion in the record follows:]

                 Prepared statement of Hon. Greg Walden

    I had the honor of chairing this subcommittee for 6 years 
and still care deeply about the issues under its jurisdiction. 
There is never a dull moment in this exciting industry. The 
communications and technology sector is a bright spot in the 
American economy as it continues to innovate, compete, and grow 
despite the recession of 2008. I have always argued that this 
industry deserves a fair, transparent government agency to 
oversee the rules of competition. Moreover, this industry 
deserves a government that understands modern technology and 
recognizes that these innovations are a critical underpinning 
of the domestic economy. Our hope today is to ensure that the 
agencies overseeing this dynamic industry have the tools they 
need to set an environment that fosters innovation and 
competition.
    I applaud Chairman Blackburn for kicking off this Congress 
with a close examination of NTIA. This agency plays a critical 
role in determining how spectrum is allocated. We will be 
looking increasingly to our government agencies to determine 
where spectrum can be re-purposed for ever increasing 
commercial needs without compromising the safety of our 
infrastructure.
    This agency also plays an important role in assessing 
policy challenges in securing our networks. We should consider 
how its role should evolve in this day and age, when threats 
include everyone from nation states to teenage kids. I am also 
mindful that additional work must be done on public safety 
networks in general. NTIA's responsibilities include not only 
the incubation of FirstNet but also the distribution of grants 
intended to incentivize states to deploy and support public 
safety answering points that can receive IP-based texts, voice, 
and video. This work hasn't exactly gotten off to a roaring 
start, and it is high time we looked into moving that forward.
    I appreciate the work that this subcommittee has done to 
date on these issues, and I know that under Chairman 
Blackburn's leadership, you will continue to do good work. I 
thank the witnesses for their time today and look forward to 
their testimony.
                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
